<html>
<title> - ARMY FORCE PROTECTION EQUIPMENT FOR OPERATION IRAQI FREEDOM AND OPERATION ENDURING FREEDOM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-6]
 
    ARMY FORCE PROTECTION EQUIPMENT FOR OPERATION IRAQI FREEDOM AND 
                       OPERATION ENDURING FREEDOM

                               __________

                                HEARING

                               BEFORE THE

                    AIR AND LAND FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            JANUARY 18, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                     U.S. GOVERNMENT PRINTING OFFICE

37-306 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                    AIR AND LAND FORCES SUBCOMMITTEE

                   NEIL ABERCROMBIE, Hawaii, Chairman
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
DAN BOREN, Oklahoma                  ROB BISHOP, Utah
HANK JOHNSON, Georgia                MICHAEL TURNER, Ohio
JOE SESTAK, Pennsylvania             CANDICE S. MILLER, Michigan
GABRIELLE GIFFORDS, Arizona          PHIL GINGREY, Georgia
KENDRICK B. MEEK, Florida            CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                GEOFF DAVIS, Kentucky
                                     W. TODD AKIN, Missouri
               Jesse Tolleson, Professional Staff Member
                Douglas Bush, Professional Staff Member
                 John Wason, Professional Staff Member
                     Benjamin Kohr, Staff Assistant
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, January 18, 2007, Army Force Protection Equipment for 
  Operation Iraqi Freedom and Operation Enduring Freedom.........     1

Appendix:

Thursday, January 18, 2007.......................................    53
                              ----------                              

                       THURSDAY, JANUARY 18, 2007
    ARMY FORCE PROTECTION EQUIPMENT FOR OPERATION IRAQI FREEDOM AND 
                       OPERATION ENDURING FREEDOM
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neil, a Representative from Hawaii, Chairman, 
  Air and Land Forces Subcommittee...............................     1
Saxton, Hon. Jim, a Representative from New Jersey, Ranking 
  Member, Air and Land Forces Subcommittee.......................     3

                               WITNESSES

Buhrkuhl, Dr. Robert L., Director, Joint Rapid Acquisition Cell, 
  Office of the Under Secretary of Defense (Acquisition, 
  Technology and Logistics); Capt. Joseph McGettigan, Commanding 
  Officer Naval Surface Warfare Design Center; Philip E. Coyle, 
  III, Senior Advisor, Center for Defense Information, Former 
  Director, Operational Test and Development, Office of the 
  Secretary of Defense; and Ray Dubois, Jr., Senior Advisor, 
  Center for Strategic and International Studies, beginning on 
  page...........................................................    37
Speakes, Lt. Gen. Stephen M., Deputy Chief of Staff, Army G-8; 
  and Maj. Gen. Jeffrey A. Sorenson, Deputy for Acquisition and 
  Systems Management, Assistant Secretary of the Army, 
  Acquisition, Logistics and Technology, accompanied by Sgt. 
  First Class Christopher Jones and Spec. Robert Vanderkarr 
  beginning on page..............................................     5

                                APPENDIX

Prepared Statements:
    Abercrombie, Hon. Neil.......................................    57
    Buhrkuhl, Dr. Robert L.......................................    70
    Coyle, Philip E., III........................................    78
    Lt. Gen. Stephen M. Speakes joint with Maj. Gen. Jeffrey A. 
      Sorenson...................................................    59

Documents Submitted for the Record:
    Analysis of Alternatives Data................................    83
Questions and Answers Submitted for the Record:
    Mr. Abercrombie..............................................    87
    Mr. Castor...................................................    95
    Ms. Giffords.................................................    96
    Mr. LoBiondo.................................................    96
    Mr. McKeon...................................................    95
    Mr. Ortiz....................................................    94
    Mr. Reyes....................................................    97
    ARMY FORCE PROTECTION EQUIPMENT FOR OPERATION IRAQI FREEDOM AND 
                       OPERATION ENDURING FREEDOM

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Air and Land Forces Subcommittee,
                        Washington, DC, Thursday, January 18, 2007.
    The subcommittee met, pursuant to call, at 2:13 p.m. in 
room 2118, Rayburn House Office Building, Hon. Neil Abercrombie 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE 
    FROM HAWAII, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Abercrombie. Hello, everybody. Thank you very much for 
coming today and being with us. This is a hearing on the Army 
force protection programs in Operation Iraqi Freedom (OIF) and 
Operation Enduring Freedom (OEF).
    Just by way of introduction, this will be my first time 
chairing, and I have the privilege of serving with a Ranking 
Member, Jim Saxton of New Jersey. I hope I handle this all 
right. I certainly had good lessons from a worthy mentor, a 
good friend, and a valued colleague in Jim Saxton. As luck and 
happenstance would have it, I served as Ranking Member to Mr. 
Saxton, both here on the Armed Services Committee, and in the 
Natural Resources, the Interior Committee, and in the process 
learned what I hope will enable me to carry through it at this 
end on the chairman dais this time. But absent the friendship 
and encouragement of Mr. Saxton, I don't think I would be quite 
ready to handle the job, and, Jim, I hope I can only do as good 
a job as you have done all the way through.
    The Air and Land Forces Subcommittee continues on its 
ongoing review of force protection issues, started under our 
previous Chairman Curt Weldon, where I had the honor to serve 
as Ranking Member. And today we are going to address vehicle 
armor, personnel armor and Active Protection Systems, the APS.
    Having said that, I will ask our guests today to--when they 
get to the infamous acronyms of one kind or another, because 
not everyone in the audience will be familiar with it or at 
ease with the acronyms, and because I believe it may be being 
broadcast as well at some juncture to a wider audience, if when 
we come up with things like APS, Active Protective Systems, 
protection systems, that we say what it is that we are talking 
about on the basis of maximizing our capacity for people to 
understand us.
    We will have testimony from two distinguished panels of 
witnesses. The first panel will involve our Army vehicle and 
body armor program, the second panel the active protective 
systems. Representing the Army on panel number one will be 
Lieutenant General Stephen Speakes, who is the Deputy Chief of 
Staff of the Army G-8; Major General Jeffrey Sorenson, the 
Deputy for Acquisition and Systems Management, Office of the 
Assistant Secretary of the Army for Acquisition, Logistics and 
Technology.
    Force protection is a top priority for this committee. 
Nearly 108,000 Army active duty and Reserve component personnel 
are operating in Iraq and Afghanistan as we speak. An 
additional 17,500 Army personnel are planned for deployment 
under the administration's new plan. Regardless of one's point 
of view on the war, with 70 percent of the casualties resulting 
from improvised explosive devices, the infamous IEDs, vehicle 
and personnel armor are critically important.
    The subcommittee expects to learn today how vehicle and 
personnel armoring initiatives are performing in theater, how 
vehicles and armor are being produced in field and in an 
expedient manner, how vehicles and armor have been upgraded to 
address evolving threats, and how well the industrial base is 
prepared to meet the possible surge in theater troop 
requirements.
    I have come to realize since I first put these words down 
that the word ``surge,'' at least in some instances of media 
consumption, has taken on a pejorative connotation or a 
political connotation. I want to emphasize at this point, 
utilizing this example, that does not take place in this 
subcommittee. It never did when Mr. Saxton was Chairman of any 
committee that I was privileged to serve with him on, and I can 
assure you it is not going to happen here. I use that word 
simply because I think it is something the general public 
understands and has no connotation beyond that.
    The military has introduced several iterations of the 
vehicle and body armor we will address today to address in turn 
the ever-increasing threat. We understand when I say ``ever-
increasing,'' what I mean by that is ever-evolving probably is 
a more accurate way of saying it.
    We understand now that all military and DOD civilians have 
been issued a complete set of body armor, and no vehicle 
travels outside a secure area without some form of factory-
produced armor. A new program called mine resistant ambush 
protected vehicles, MRAP, composed of three different 
categories of vehicles, is the latest effort to protect our 
personnel.
    Just as the Humvee reached a point at which additional 
armor protection is not possible because of gross weight 
limitations and change in mission and tactical capacity, 
personnel can only wear--just as that happens with vehicles, 
personnel can only wear so much armor beyond which their 
operational effectiveness is inhibited or perhaps actually 
increases the risk of their being injured. The challenge for 
the military then is to seek a balance between increased 
vehicle and personnel armor protection and operational and 
personal effectiveness. This will be addressed by the panels.
    Vehicle armor is defensive in nature and cannot totally 
protect against the evolving threats in the theater of war. 
There are IEDs that have been encountered for which no 
reasonable level of armor will provide protection. The efforts 
to inhibit implacement and detection of implaced IEDs have 
significantly increased, but have not kept pace with the 
threat. In addition, mistakes perhaps have been made in the 
past that delayed timely deployment of critical systems. 
Hopefully we can avoid these same mistakes in the future. That 
is one of the reasons for this hearing.
    To the degree or extent that bureaucratic or institutional 
requirements, legislative requirements have had a delaying 
effect, we need to know whether that is the case and whether 
there is something that can be done legislatively to expedite 
the availability of equipment that has been tested and meets 
the need. We must be able to confidently say to our Armed 
Forces as well as to the American people that we are doing 
everything possible to provide our warfighters the protection 
they need and deserve.
    We recognize that no matter how much we spend on protective 
systems, the reality of war is that the U.S. forces will take 
casualties in combat. What we want to do is minimize those 
casualties and maximize our capacity to respond to the 
necessity of confronting that issue. Obviously we look forward 
to hearing from all of our witnesses on these important issues.
    [The prepared statement of Mr. Abercrombie can be found in 
the Appendix on page 57.]
    Mr. Abercrombie. And with that, I would like to turn to my 
good friend and valued colleague Representative Saxton.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE FROM NEW JERSEY, 
        RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Saxton. Mr. Chairman, thank you very much, and thank 
you for the very kind words at the outset of your remarks. I 
appreciate that very, very much.
    Mr. Abercrombie and I first became associated as Chairman 
and Ranking Member over 12 years ago, and it was 6 years ago 
that we took up our second set of subcommittee assignments 
together as Chairman and Ranking Member of the Military 
Construction Subcommittee on this committee, and I must say 
that we have had a great relationship. Not only are we friends, 
but I believe that we work very well together, have quite a set 
of accomplishments, I believe, which were made possible by 
efforts of both of us to make sure that we do the best we can 
for the American people.
    And let me just say this, too: I suspect that outside the 
Beltway most observers think that we come here to be 
disagreeable and not get along with each other, and that is 
really not true. That is not true on the full committee here, 
on the Armed Services Committee, and certainly not true on the 
Air and Land Subcommittee. I value the Chairman's friendship, 
and I value working with you this time for the third time. My 
only disappointment is that the roles have been reversed, but I 
guess that is part of democracy.
    Mr. Chairman, thank you for having this hearing. This 
subcommittee has a long tradition of keeping focused on those 
issues that can most impact our brave men and women in uniform. 
I am glad to see that under your chairmanship, you are 
continuing this tradition, making force protection a top 
priority for the committee.
    To our witnesses, thank you for being here. I know that 
both of you work these issues, these kinds of issues, 24 hours 
a day, 7 days a week, and that for you it is both professional 
as well as personal because you care about the soldiers and 
other military personnel that you care for. We are very 
fortunate to have each of you serving our country, and we are 
very fortunate to have you here today to share information with 
us.
    As the threat to our military personnel continues to 
evolve, force protection requirements must continue to change 
accordingly. We, as a committee, need to be reassured that all 
force protection programs are being accomplished expeditiously, 
the services are communicating with each other, and that every 
effort is being considered to meet new force protection 
requirements. Every day we must be able to confidently say that 
we are doing everything possible to provide our warfighters the 
protection they need and deserve.
    At the same time, there is only so much protection that we 
can place on our soldiers before they can't walk. We need to 
realize that. Or only so much armor we can put on wheeled 
vehicles before they will roll over. In this regard, I am very 
interested in learning more about the mine resistant ambush 
protected vehicle, MRAP.
    It is my understanding that the Army and the Marine Corps 
are going to acquire and field MRAP to partially replace this 
supplement and supplement the up-armor Humvees in theater in 
order to meet an urgent work warfighter requirement. These 
vehicles should mitigate or eliminate the three primary kill 
mechanisms of mines and IEDs, fragmentation, blast-over 
pressure and acceleration.
    Our witnesses recently gave us a great classified briefing 
on MRAP, and I know that the source selection process is still 
underway, and there are certain things our witnesses can't say 
here today. However, I would like to hear assurance from the 
witnesses that they are not going to turn this MRAP program 
into a 10-year or longer acquisition program, and that we are 
not going to make the same mistakes of the past where the 
government doesn't own the technical data package.
    And finally, not to get into any source selection sensitive 
issues, but we need to hear from you that the industrial base 
is positioned to meet this urgent requirement.
    I look forward to your testimony, and I again thank you so 
much for being here. Mr. Chairman, thank you.
    Mr. Abercrombie. Thanks very much.
    Mr. Saxton, I want to proceed now with the first panel's 
testimony and then go on to questions for that panel, and then 
take testimony from the second panel, which will then be 
followed by questions.
    Now, without objection, all witnesses' prepared testimony 
will be included in the hearing record, and, General, I presume 
that you were notified ahead of time. We want only a brief 
summary at this stage, and then we will get right to the 
questions and/or observations.
    I want to indicate to Members you do not necessarily have 
to have a question. You might have an observation you want to 
make upon which you would want to have a comment made. So not 
everything has to be in question form.
    And, Lieutenant General Speakes, I will ask you to begin 
and acknowledge in the process that I know you have two sons 
currently serving in the Army with one deployed to Iraq, and I 
want to thank you for your service to your country.

   STATEMENT OF LT. GEN. STEPHEN M. SPEAKES, DEPUTY CHIEF OF 
STAFF, ARMY G-8; AND MAJ. GEN. JEFFREY A. SORENSON, DEPUTY FOR 
ACQUISITION AND SYSTEMS MANAGEMENT, ASSISTANT SECRETARY OF THE 
  ARMY, ACQUISITION, LOGISTICS AND TECHNOLOGY; ACCOMPANIED BY 
 SGT. FIRST CLASS CHRISTOPHER JONES AND SPEC. ROBERT VANDERKARR

            STATEMENT OF LT. GEN. STEPHEN M. SPEAKES

    General Speakes. Thank you. Sir, thank you very, very much.
    Mr. Chairman, Ranking Member Saxton, members of the 
committee, it is truly an honor for us to be here today, and we 
talk the same language, which is how we protect soldiers, which 
is the number one mission that we have to talk to you about 
today to assure you that we are first and foremost interested 
in making the soldiers' protection a serious job for all of us.
    As we begin, General Sorenson and I would like to introduce 
rather than wait to the end two recently redeployed combat 
veterans from the great Task Force Iron Horse of the 4th 
Infantry Division. To my right, your left, I would like to 
first introduce Sergeant First Class Jones. Sergeant First 
Class Jones redeployed here about 6 weeks ago. He is a member 
of the 4th Infantry Division. He is a platoon sergeant. 
Interestingly, he is a veteran of Desert Storm, and now he has 
had his second opportunity to serve in harm's way as he has 
just completed his last tour with the 4th Infantry Division.
    To his left, another hero, a great specialist, and somebody 
who really makes the Army go, because for all of us who know 
the Army, we understand that specialists, the junior 
noncommissioned officers of our game--and I am talking about 
Specialist Robert Vanderkarr. He is a two-time veteran of Iraq, 
and he was a part of the 4th Infantry Division's first mission, 
stationed in Tikrit back in 2003, and he has seen the evolution 
of the battle in the fight, and he has seen the evolutions of 
the systems that you have enabled us to receive.
    Mr. Abercrombie. General, that designation as hero hasn't 
increased the pay rate, has it?
    General Speakes. I certainly would like that, but I don't 
think it has.
    Mr. Abercrombie. We will look at that.
    General Speakes. You gentlemen have given us essentially 
the introductory statements we have needed. You have recognized 
the importance of this mission. You have recognized the 
criticality of it in your hearts and minds. We are here to 
reassure you that we are doing what we ought to for American 
soldiers.
    Let me talk quickly in an update form about what we are 
doing to make a difference for the soldiers that are deployed 
in harm's way today. First of all, we use a system-of-systems 
approach. It is not just about body armor. It is not just about 
a Humvee. It is about a total concept of protecting and 
shielding soldiers, and then ensuring that he or she is 
equipped with the right training before they go so that they 
are able to operate confidently and well in a combat zone.
    Procedurally, the Army is a part of the joint community and 
has gone through an enormous revolution. The idea of a 10-year 
acquisition cycle as was referenced by Mr. Saxton is not 
something any of us would tolerate today. We can't live that 
way. We don't. We live right now by operational needs 
statements. That is the vehicle by which commanders communicate 
to us. This past year in the Army, for example, we honored 942 
operational needs statements from the combat zone. It is 
soldiers at the soldier level communicated what they needed to 
deal with the needs of this war, and, thanks to you, we have 
been able to honor those with quick, efficient solutions that 
are representative of our need to adapt and grow as we 
encounter an ever-evolving enemy.
    The other thing we have been able to do is field 
capabilities because we have new concepts. For example, the 
Rapid Equipping Force is something that has been 
institutionalized in the Army that enables us to bypass 
clumsier or outdated systems to get capabilities quickly 
engineered to meet the needs of soldiers.
    We are also members of a joint community. On a biweekly 
basis Lieutenant General Gardner and I meet at what we call the 
AMCB, Army-Marine Corps Board, that links the two partners in 
the ground component together. So we talk from the Department 
of the Army, the Department of the Navy's perspective about how 
we are going to bring joint programs together to field the 
needs for soldiers and marines together. So whether it is body 
armor or it is an up-armored Humvee or the next vehicle that we 
are talking about, which is called the MRAP, or the mine 
resistant ambush protected vehicle, that vehicle is born as an 
Army and Marine Corps joint vehicle right from the start. It is 
not something that somebody has to borrow from one another. We 
have shared the concepts, we have shared the concepts of 
development, we will share the funding on line, and we will 
bring it on line to support both forces simultaneously.
    We are also a part of joint strategies and solutions that 
make us move effectively in the joint world just as much as we 
move within our own service.
    Let me quickly highlight we have already heard some 
testimonies about body armor. Sergeant Jones and his team are 
over here to talk to you about any of that. They have brought 
some representative samples of it with them. If you have a 
particular question, they are ready to address that.
    We have also made substantial improvements to up-armored 
Humvees. Over 14,000 up-armored Humvees now on the ground in 
the country. People don't travel outside of a forward-operating 
base without an up-armored Humvee to protect them. That up-
armored Humvee has been significantly enhanced in terms of its 
basic protection with a series of protections we briefed you 
about in the closed session to give you the assurance that as 
the battlefield evolves or shapes and changes, we will do the 
right thing to make sure that existing piece of equipment is 
modernized and improved to the extent possible.
    We have also done a lot to continue to improve the quality 
of the individual soldier's equipping. We recognize, for 
example, that the risk of fire is now greater, so we field that 
increasing qualities of Nomex to soldiers forward so that they 
don't get caught in a burn incident to some kind of an 
explosion on a vehicle.
    We also have been concerned about ensuring that we have 
other systems. Route clearance teams are now a fact of life as 
we employ highly specialized teams that essentially are a mix 
of Army engineers and explosive ordinance dispersal teams to 
ensure that as we go forward on routes every day, we are 
clearing those routes with equipment that is designed to 
withstand the blast of a typical IED.
    We have made major improvements in command and control. 
This is a knowledge-based war. If we can't move knowledge, if 
we can't ensure we are bringing local intelligence to the 
commander on the ground who is using it, we are wasting our 
time.
    Through your support we have gotten enormous capability 
improvements to the Army. Joint Network Node, or as it is known 
as JNN, is an enormous example of that. We used to be an Army 
that was based upon static wave systems that couldn't move with 
an operational force. Now with essentially a satellite 
capability, we moved right to the tactical level with immediate 
communications capabilities that support commanders who are 
forward. That is enormously important as we look at moving 
knowledge to where it matters and where it makes a difference.
    Testing is also radically different. Major General Jim 
Myles, Army Testing Command, now has on a permanent basis 
testers who are forward in the combat zone, looking and 
examining what the trends are and seeing the effectiveness of 
systems, and then coming back to the Army with lessons learned 
so that we make improvements and we don't wait for somebody to 
come back and tell us what we missed.
    So testing is critical because we don't want to put 
soldiers in harm's way with systems that aren't ready, but 
conversely, we can't take years to test and think about things 
before we field capabilities. So we are making sure that what 
we are putting in soldiers' hands is the right stuff, and where 
it needs continued improvement, it gets it.
    From the standpoint of the plus-up, I want to assure you we 
are doing the right thing. We heard reference to the surge or 
increased flow of forces that has been announced by the 
National Command Authority. Here is what has happened. The Army 
met in corporate body on Friday via video teleconferencing 
(VTC). Each brigade commander briefed General Campbell, who 
supports his combat commander, and the Army Vice Chief of Staff 
General Cody, and essentially at the brigade command level each 
brigade commander told us their status both in terms of 
training and equipping, what they needed, and then the Army 
staff came back in collaboration with the Forces Command staff 
and came back and told each brigade commander what the answers 
were when we deliver the equipment. And then, importantly from 
our angle also, we also told those commanders what we have 
forward in theater that would be theater-provided equipment 
that would meet their needs.
    We will not send soldiers who are improperly protected. 
Every soldier will get the Army's standard for force 
protection. They will get it because we have it. And the reason 
we can do it is because thanks to your support, we have 
adequate quantities of critical equipment like up-armored 
Humvee and jamming devices on hand now so we can meet a surge 
in requirements and not be desperate. And we will need your 
continued support.
    Obviously this surge will cause us to draw down other 
stocks. We will need to replenish those. The $17.2 billion that 
you gave us this last summer for Army reset is fueling the 
arsenals of democracy. Increased procurement, increased work in 
America's arsenals and depots is all happening. All that will 
then enable us to replenish the stocks.
    The other thing we are asking, obviously, is immediate help 
in terms of what we are going to get with Army supplemental 
requests. We would like to have the supplemental requests 
honored by April. It will be hard to do, but if we can get it 
from you, what it will enable us to do is to put money where we 
need it so we can keep system flows to soldiers. The soldiers 
here will testify to you that we have done incredible things to 
take care of them. They know it, they appreciate it, they are 
here to tell you about it, and we thank you for your support.
    Mr. Abercrombie. Thank you, General Speakes.
    [The joint prepared statement of General Speakes and 
General Sorenson can be found in the Appendix on page 59.]
    Mr. Abercrombie. General Sorenson, I saw by mental 
telepathy you were giving General Speakes some of your time. So 
I know that you are going to move even more quickly.

           STATEMENT OF MAJ. GEN. JEFFREY A. SORENSON

    General Sorenson. Yes, Chairman. Chairman Abercrombie, 
Ranking Member Saxton, and distinguished members of the House 
Armed Services Committee, we would again like to express our 
appreciation for the opportunity to appear before this 
committee to discuss the Army's continued effort to improve our 
soldiers' force protection capabilities.
    I would like to state first that the Army is totally 
committed to making sure our soldiers have the best force 
protection capability available. However, as acquisition 
professionals, we are responsible for ensuring the systems we 
provide our soldiers are operationally suitable, tested and 
validated to meet the current threat. We will not give our 
soldiers a false sense of security by fielding systems that are 
not safety certified nor rigorously tested in an operational 
environment.
    In providing force protection, the Army employs a system-
of-systems approach that focuses on incorporating redundant 
levels of protection through a series of integrated layers of 
capabilities. One could think of these layers of force 
protection much like the layers of an onion where the soldier 
is at the very core, and the various systems comprise the 
outside succeeding layers.
    At the outermost layer are technologies, tactics, 
techniques and procedures (TTP) designed to avoid enemy 
attacks. Systems within this layer include improved situational 
awareness capabilities, such as the Force 21, battle command 
and below Blue Force Tracking Systems, and improved network 
capabilities such as the Joint Network Node (JNN), which 
provide more real-time information to our individual soldiers.
    The next layer of protection is detection of ordnance. An 
example of this type of system would be the Long-Range Scout 
Surveillance System, which gives our soldiers the ability to 
detect and identify enemy targets at extended ranges throughout 
day and night-time conditions. Detection of ordnances has 
followed them by acquisition avoidance, which includes 
countermeasure systems that prevent improvised explosive 
devices from detonating, such as the Warlock family of 
capabilities.
    The next layer is hit avoidance capability, such as our 
slat, which essentially is a bar armor that we put on the 
outside of our vehicles and reactive armor tiles in combat 
vehicles which are designed to defeat Rocket Propelled Grenades 
(RPG) attacks.
    The following layer focuses on avoiding penetration. This 
would be improved protection such as we have done for our 
Humvees as we have added additional armor, and this would be 
that type of capability.
    And then the final layer encompasses items for our 
soldiers. To date the Army has field seven improved versions of 
the individual body armor suite, each better than the last, and 
have improved helmets. Our science and technology community 
currently is working on the next version of individual body 
armor and is constantly exploring ways to prevent individual 
casualties.
    The Army is closely monitoring the threats too and to the 
operational requirements of our soldiers in theater. And as I 
said before, we are completely committed to providing our 
soldiers the best force protection possible, and the Army will 
continue to work with our industry partners to pursue research, 
development and procurement of the most advanced capabilities 
available. However, as I said before, we will not purchase or 
field any system not proven, tested or validated to be 
operationally safe and ready. Deploying these unproven systems 
simply would not be in the best interest of our fine men and 
women in uniform.
    Thank you for your time today. We look forward to your 
questions.
    Mr. Abercrombie. Thank you very much.
    General Speakes, did you want Sergeant Jones or Specialist 
Vanderkarr to make a presentation at this point or at any 
point? Or do you intend to have them stand by for questions or 
commentary from the Members?
    General Speakes. Sir, we have them standing by. They are 
available for any questions.
    Mr. Abercrombie. Any time you think it would be appropriate 
for them to answer or comment, please feel free to do so. Okay?
    General Speakes. Yes, sir.
    Mr. Abercrombie. Thank you.
    I think I will defer my questions to begin with and to let 
the Members get started.
    I am sorry, Jim, I should have asked you whether you have a 
question, or you want to get started?
    Mr. Saxton. Let us get started.
    Mr. Abercrombie. Okay. Who will be the first Member then? 
We were going to do this, at least as far as my committee is 
concerned--it is obviously once I got started, my good deed got 
immediately complicated. Rather than have Members start with 
me, I am going to go by seniority on up, and then the next 
hearing will be on seniority on down. So it will give everybody 
a chance.
    So first will be Representative Castor from Florida, and 
this will be her first opportunity as a member, a new member of 
the committee, to speak. So it is a particular pleasure for me 
starting my chairmanship for the first time to be able to 
welcome you personally, and to offer you the opportunity to 
exercise the franchise that has just been awarded you.
    Ms. Castor. Well, thank you very much, Mr. Chairman. And I 
will relay that to the proud men and women that are serving at 
MacDill Air Force Base in my district in the Tampa Bay area, 
which includes Central Command (CENTCOM) and Special Operations 
Command (SOCOM) and Air Refueling Wing.
    I wanted to go to the escalation of the war in Iraq and 
what you have referred to as your survey of the brigade 
commanders. And first let me say that no matter how anyone 
feels about the war in Iraq and the President's recent 
announced escalation, we want our brave men and women to have 
all of the protective gear and armor they need when they are 
out in the field.
    You asked each brigade commander what they need as the new 
brigades prepare to deploy to Iraq. Could you go over what they 
asked for and what you have relayed to them that they will 
receive? And then what did you--did they ask you for any 
equipment that you were not able to provide? And then could you 
elaborate on your mention of the depleted stocks that we are 
going to have to go back and pay attention to those? Thank you.
    General Speakes. Yes, ma'am. What we had was a very 
detailed review in which we went to the unit status report, 
which is a classified document that is prepared monthly by each 
commander at the brigade level. So in this case we went to the 
December report, and what we did was reviewed the status of 
each brigade commander's concerns. And essentially what we are 
doing in the Army is we are doing a just-in-time delivery of 
equipment to commanders to afford them the chance to train 
before they deploy, and because we are now accelerating the 
flow of these forces, what we had was a compression of the time 
available, and so their question essentially was, when am I 
getting my stuff? Can you pull any of this forward to ensure 
that when we go to the mission rehearsal exercise, which is the 
capstone event, that we will have adequate quantities of 
equipment to train with?
    So what we are looking at then is specific concerns from 
each commander, and they vary greatly. But essentially the 
basic issues are, first of all, tactical wheeled vehicles. 
Tactical wheeled vehicles right now are in very short supply in 
the training Army, and the tactical wheeled vehicles that are 
of biggest concern is the up-armored Humvee; and then also the 
medium tactical wheeled vehicle and heavy tactical wheeled 
vehicle. So we are running those at essentially a level where 
we can ensure that everybody gets enough to train on and to 
support that training environment.
    So we are able to support those requirements, and then what 
we are able to do is show them that what they will get is 
adequate quantities of up-armored Humvees once they get into 
Arifjan, Kuwait, before they make the trip north.
    The other key commodities that they are concerned about is 
night vision equipment and night sighting equipment. We are 
talking night vision goggles and other sets of equipment that 
enable you to see better and operate better with precision from 
distance. And then finally, command and control equipment; 
items, for example, like land mobile radios and the Joint 
Network Node, which is the pivotal synchronization system that 
holds us together at battalion and brigade level. We are able 
to tell them the dates that we could achieve in terms of 
accelerating delivery in getting it to them. The standard that 
the Army has set is that we want to get that equipment to 
people before their mission rehearsal exercise wherever 
possible. Failing that, for example, a final set of equipment 
might arrive before you deploy, and we are able to, in general 
terms, meet the requirements that were identified by the 
brigade commanders in accordance with their training plan.
    The other thing that we worked in was a specific planned 
flow of forces as they arrive in the combat zone to make sure 
we have the configured sets of theater-provided equipment that 
will be available for them when they arrive. Essentially the 
critical item there is centered around the up-armored Humvee 
and the suite of force protection equipment that travels with 
it to include machine guns, radios, what we call Blue Force 
Tracker, which is a satellite-based communications system. And 
then the other thing they wanted to do is make sure that we 
have adequate jamming devices to provide us the capability of 
operating in an IED environment. We are able to do that.
    The shortfall that we will have to work on a sharing 
relationship is medium and tactical wheeled vehicles. They 
don't sound very glorious or romantic, but they are important 
because the medium and tactical wheeled vehicle gives you your 
cargo-carrying capability in the combat zone. All of our medium 
and tactical wheeled vehicles that are operating right now in 
Iraq are all up-armored. They have armor applique on the sides 
and bottoms. We essentially had enough for the existing 
brigades and a few more brigades that were in the Army 
preposition sets that were available. So what we are doing then 
is to take and essentially reallocate from the 7,000 to 8,000 
vehicles that are operating in theater that are mediums and 
about the same number that are heavy trucks. So what we will be 
doing is having to share those in the near term until we can 
up-armor additional trucks. So that is an area of shortfall 
where there will be sharing involved to get us what we want.
    So that is a quick summary of a very important question, 
which is the assurance that we are meeting training 
requirements here at home, and that we are also able to provide 
the right equipment to soldiers when they arrive in the combat 
zone. Our assurance on behalf of the Army is, yes, ma'am, we 
can do it, that we plan on doing it, and soldiers will not 
suffer because of a lack of this critical equipment.
    Mr. Abercrombie. There is one minute left in your time.
    Ms. Castor. Yes. Were there any equipment requests from the 
brigade commanders that were made that you told them, we--in 
our estimation you won't need that, or did you decline to 
provide any equipment that were requested by the----
    General Speakes. None that are available, ma'am. I don't 
want to portray that we have given everybody everything. If, 
for example, we had something called a force feasibility review 
level, which essentially is something that in some cases 
enables you to have enough to train on but not enough against 
the existing design, what we do then is we make that up when we 
get over in the combat zone as we provide it as a part of 
theater-provided equipment. So it is either in the near term we 
have a strategy to take care of you in training, or when you 
arrive in the combat zone, you will get the additional 
complement of equipment you need. We are able to do that, and 
we lay that out by the numbers.
    Mr. Abercrombie. Thank you.
    Ms. Castor. Thank you.
    Mr. Abercrombie. Next will be Representative Geoff Davis 
from Kentucky.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman.
    I think back almost just a little over 10 years ago when I 
presented a tactical paper on countermine operations at the 
naval postgraduate school's annual mine warfare conference, and 
many of the casual topics on discussion and technical displays 
on active and passive measures have come into a great need 
certainly in the time since then.
    You know, I understand as we keep fighting an adaptive 
enemy, there are three basic issues that we deal with. One is 
situational awareness that you mentioned earlier; the command 
and control and informational systems for the troops up front; 
passive defensive systems, whether it is body armor or vehicle 
armor. But one area I would like you to make a comment on--and, 
by the way, congratulations on your promotion also--is in the 
area about ways that the soldiers or commanders can shape the 
situation that they are in as it begins to develop or--begins 
to develop or it is fluid, particularly around the area of 
active denial systems.
    I know that is not your principal topic right now, but one 
thing I would like to hear from, since you are only going on on 
the first panel, I understand CENTCOM has forwarded a joint 
urgent operational needs statement for nonlethal active denial, 
and it seems to be a revolutionary approach, harking back to 
that conference 10-1/2 ago. But I was wondering if you could 
comment on how the Army plans to support that request, 
particularly with some of the tabloid news in the press touting 
one system or another versus what you are working on, but also 
what you feel your ability to deploy that system is and a 
timeline required to fill the request.
    General Sorenson. Congressman, if I could just ask a 
clarifying question. You said active denial system. Did you 
mean Active Protection System, or did you mean active denial 
system, because they are two separate systems?
    Mr. Davis of Kentucky. I am interested in the active denial 
system.
    General Sorenson. Active denial system, at this point in 
time, we are working with a couple contractors. We have 
developed some prototypes. But as we have found in the past, 
delivering these type of capabilities into theater has 
particular consequences that, quite frankly, are at the policy 
level with respect to making sure that they can be deployed.
    As you may know, these particular systems, though they are 
nonlethal, have an impact with respect to, if you will, being 
burnt in a microwave that creates a particular image that I am 
not sure particularly at the policy level we have been given at 
this point in time the authority to deploy it. So while we are 
working on the technology, there are other issues that have to 
be contended with before we can deploy something of this type 
of capability.
    Mr. Davis of Kentucky. I understand there is an issue on 
the back side of this, we are going to say at-risk issues, for 
soldiers with the APS systems. But coming back to active 
denial, one thing that--it is your problem--concern over 
international treaties similar to the challenges that the Army 
went through using CS or tear gas, and what are essentially law 
enforcement functions which would be legal here?
    General Sorenson. Yes. That is are accurate. Just like 
years ago, we had developed a particular, if you will, optic, a 
system called Stingray, which essentially was a laser optic 
that was put on top of a weapons system basically with a night 
sight device. That particular capability had an ability to 
essentially blind temporarily the particular individual who was 
essentially trying to attack you. Though that system got 
through the development and even into procurement, as we got to 
the point of putting into the field and deploying it, it was 
basically pulled off the shelf because of these international 
treaty agreements, much like at this point in time we still 
have to work through active denial systems.
    Mr. Davis of Kentucky. We went through a similar 
circumstance with the chemical weapons treaty issue last year 
for Special Operations Forces, and we would like to help you 
address any well-meaning attorneys or diplomats to deal with 
the statutory aspects of this. But given that assumption, if we 
could sweep the other interests aside, what do you think the 
timeline would be to actually put that in the hands of our 
units?
    General Sorenson. Sir, I would say at this point in time 
with where we are in terms of integrate and onto a vehicle, I 
would say we are probably maybe a year, maybe a year and a half 
away.
    Mr. Davis of Kentucky. Would that be an accelerated effort?
    General Sorenson. That would be an accelerated effort, yes. 
We have seen it demonstrated. I cannot say at this point in 
time we can put it completely integrated into a vehicle, 
although we have had it demonstrated on vehicles, but in terms 
of getting it to the point where it has been tested, been 
operationally evaluated to get the soldiers trained, to 
basically get it into theater, I would say at least a year and 
a half.
    Mr. Davis of Kentucky. Has there been any operational 
evaluation in theater?
    General Sorenson. Negative.
    Mr. Davis of Kentucky. I yield back, Mr. Chairman.
    Mr. Abercrombie. Thank you very much, Representative Davis.
    Next, Representative Gillibrand of New York. Again, for 
everybody's information, I said I can always complicate good 
deeds. We are going in reverse order of seniority and by when 
you entered the room.
    Mrs. Gillibrand. Thank you, sir.
    Mr. Abercrombie. This is fairness with a vengeance.
    Mrs. Gillibrand. Thank you, Chairman.
    Thank you, gentlemen, for testifying today. We are very 
appreciative of your service, your sacrifice and the 
information you are providing to our committee today.
    Could you please address preparation and training for 
National guard and reserve forces, and to the extent you have 
the equipment that is necessary to do proper training, and what 
investments you would need to improve that.
    General Speakes. Yes, ma'am. The critical requirement for 
establishing readiness in National Guard or Army Reserve 
formations that are going to be going to the combat zone, I 
think, has been helped substantially by a change in policy. 
What we will now do is essentially mobilize an entire unit at 
one time, and so instead of mobilizing the flag and then 
looking for individual augmentees, the unit will now be 
mobilized at one time, everybody in the unit.
    The other thing that has been announced by our senior 
leadership is that unit will be mobilized for a year. So what 
we now have is a much more finite and much more compressed 
time. So what it means to me as the Army's equipper, we have to 
work very closely with the Director of the Army Guard to 
ensure, as we develop the timelines for this, that we now focus 
the flow of equipment to particular brigades that would be on 
this mobilization timeline so that what they are able to do is 
achieve a high level of readiness in pre-mobilization training 
so that when they are then mobilized, they then have a high 
level of equipment, they have a relatively high level of 
individual and crew training that enables them to quickly go 
through the remaining training gates so that they could then 
deploy as a part of an organized integrated formation.
    At the current time, the overall equipping levels of the 
Army Guard, Army Reserve are substandard, just as they are with 
the rest of the nondeployed Active force. We are now seeing an 
increased flow of equipment going into all Army units, Active 
Guard and Reserve. It will be our challenge as a part of our 
new force generation cycle to essentially flow or prioritize 
those items of equipment now, the units that have been 
announced that they are going to be going through a 
premobilization training routine incident to deployment.
    The other thing we recognize is we had a requirement to 
provide for the homeland defense of this country, and so we 
have also identified in collaboration with the Army Guard and 
Army Reserve the specific items of equipment that have nothing 
to do with deploying. They are the basics of transportation, 
night vision and force protection that you would want 
guardsmen, if they were mobilized in a peacetime scenario here 
for homeland defense, to be able to use quickly. We are also 
prioritizing that equipment, and, in fact, thanks to you, we 
are able to buy a substantial chunk of that to reinvest in the 
Army Guard based upon part of the money we got in the $17.2 
billion reset. We invested $2.2 billion of that directly into 
buying equipment that is homeland defense stuff for the Army 
Guard.
    Mrs. Gillibrand. About a year ago a woman on my staff, her 
brother was going to be sent to Iraq, and her parents were 
saving money to buy him better armor than what he was going to 
be given a year ago. I know we have made vast improvements on 
our armor and providing more for more of our soldiers. They 
also began to put batteries in the care packages to make sure 
they had the right kind of batteries for their night vision 
goggles.
    What would be the greatest complaints from your soldiers 
today as to what they are not receiving that they should be 
receiving and what so many parents are hoping to have their 
young men and women have when they are in the field?
    General Speakes. Ma'am, thank you for the question because 
it goes to the core of confidence that frankly loved ones who 
look at their soldiers deploying know that he or she is 
properly protected by the Army and not by some well-meaning 
family member.
    The issue with body armor is there never has been and never 
will be better body armor than the Army is fielding to its 
soldiers today. And, in fact, several months and years ago, we 
were victimized by some very aggressive commercial efforts to 
essentially instill a lack of confidence in loved ones and 
instill the false belief that there was better body armor 
available commercially. That was false, it was proven false, 
and we stand on our record, which is the stuff we are providing 
to our soldiers is the best.
    Now, we also have supply issues, as you alluded. Things 
like batteries are, in isolated locations, shortages. We are 
much more logistically capable today than we were. At this 
point when you look at the protection of our soldiers, there is 
nothing better than what we are providing or soldiers. It is 
state of the art. It is something America ought to be very 
proud of, and they ought to immediately challenge any reports 
that there is something better commercially than what we are 
providing our soldiers.
    Mrs. Gillibrand. Thank you.
    General Speakes. Sergeant Jones, do you have a comment? 
Anything from your standpoint that you saw that you would like 
to have better or different?
    Mr. Abercrombie. Yes, Sergeant Jones, would you like to 
contradict the general?
    Sergeant Jones. No, I would not want to do that, sir.
    In regards to the body armor and the batteries, no, we 
never saw a shortage. Every now and then, you know, supply 
lines are a little slow, but they still showed up. We can't 
complain about the body armor because it is definitely saving 
lives at this time.
    Mrs. Gillibrand. Is there anything, though, that you would 
be asking Congress to provide that is not being provided now 
for your men in the field?
    Sergeant Jones. None that would--maybe that I could explain 
to you right here, right now. There are things out there that 
everybody has a wish list, but right now the Army is fronting 
everything it could possibly front to us, and we are working 
with it.
    Mr. Abercrombie. Thank you.
    Congresswoman Giffords from Arizona will have the next 
question period thanks to the friendly and kind and courteous 
gesture of Representative Johnson.
    Ms. Giffords. Thank you, Mr. Chairman.
    Thank you, General Speakes and also General Sorenson, for 
being here.
    There has been criticism against the Army for the anti-RPG 
bid done, the contract given to Raytheon, and I understand that 
the system was chosen because of Raytheon's discipline and 
expertise and knowledge and ability to deliver this system. 
There has been controversy on this, and I was hoping that you 
could explain how the contract was awarded and the assurances 
that we can give to the American people that the contract was 
done correctly.
    General Sorenson. The contract was essentially awarded 
through what we have with our Future Combat System called the 
lead system integrator. It was also a combined effort with the 
government team basically to put this particular contract out 
as a subsystem of the overall hit avoidance capability that we 
are providing.
    As I mentioned before when we talked about this, the anti-
RPG, if you will, is one component of an--essentially what we 
are doing with force protection in terms of better situational 
awareness, in terms of improved capabilities, in terms of our 
ability to detect and identify targets, and then our ability to 
avoid penetration. The issue has come in with respect to 
whether or not this particular system was the appropriate 
system to be chosen.
    I can tell you it went through a rigorous evaluation with 
respect to source selection. The system was chosen based upon 
the requirement that was put out, which was essentially a 360-
degree hemispherical requirement, and it was chosen because it 
was the one that showed the most capability with respect to 
other issues as you design a system into a platform with 
respect to size, weight and power. Okay. This was deemed to be 
less power, less weight, less volume, provide the 360-degree 
hemispherical capability, and provide it with an ability to 
essentially detect, identify and destroy targets.
    Now, what you have seen in recent media reports, in my 
opinion, has been very misleading, very unfair, and very 
biased. Typically today there is no Active Protection System 
that could be put on our vehicles. We are in the process of 
developing those, as is the Trophy system. However, what we 
have deployed to our forces, which is essentially the slat or 
the bar armor on our Stryker, our M-113 and our Bradley 
vehicles, we have also put reactive armor tiles onto our 
Bradley, our Stryker and soon to be our Abrams, and these 
systems, quite frankly, are defeating the RPG threat, and as a 
consequence what we have provided is giving the soldiers that 
we have today the capability to detect--excuse me--to avoid 
being killed by some of these RPGs.
    Ms. Giffords. Thank you, Mr. Chairman.
    Thank you, General.
    In terms of the contract, is that an ongoing contract? Or 
how often is that contract reviewed?
    General Sorenson. The contract was awarded basically in two 
increments. The first increment was to essentially go and 
attack the short-range problem, which is essentially defined as 
RPG. Phase two would then go into long range, which essentially 
is an antitank guided missile (ATGM), and that contract has 
been awarded for the full development of that capability.
    Ms. Giffords. And, Mr. Chairman, if I can use my remaining 
time to address a question that I earlier started with Sergeant 
Jones in conjunction with the issue with IEDs and the 
experience of once a soldier is hit in a vehicle, the process 
that he or she will go through.
    Sergeant Jones. Ma'am, the process the soldier will go 
through is after an IED strike, the individuals, if they are 
not critical and they are not immediately medevaced out of 
there, they are taken back to their forward operating base. 
They are seen by a surgeon or the physician's assistant, they 
are screened, and basically what you are seeing is, depending 
on the size of the explosion, is those of a boxer; in laymen's 
terms, civilians' terms, the injuries resulting like a boxer. 
And they are either screened and cleared for duty, or they are 
sent for further medical treatment.
    Ms. Giffords. And perhaps a better question then for the 
generals. In terms of long-term effects as far as symptoms that 
would not appear within the first couple of weeks or couple of 
months, but perhaps a year or two, is there an ongoing process 
to make sure that our soldiers don't suffer from long-term 
effects or can be treated effectively?
    General Speakes. Ma'am, that is outside of my specific 
expertise. I can relate as the parent of a son who has been a 
part of IED strikes that what Sergeant Jones indicated is there 
is a continuing medical surveillance. It is a part of initially 
what happens in the immediate post incident period. The 
analogy, I think, also is like after you have really had your 
bell rung after a football game in the sense that it is a 
period of decreased awareness and mission capability, and 
during that time period the soldier is usually in a limited 
duty status.
    The next thing that happens is a part of our redeployment 
process. We essentially have a medical evaluation process in 
which we are trying to identify the basic status of all of our 
soldiers as they get ready to reenter the civilian population, 
and that is the next place where screening occurs.
    And beyond that, that is the limit of my expertise. And let 
me take the question for the record to provide you with a more 
detailed answer.
    Ms. Giffords. Thank you.
    [The information referred to can be found in the Appendix 
beginning on page 96.]
    Mr. Abercrombie. Are you finished? Very good.
    My good friend Dr. Gingrey, Phil Gingrey of Georgia, will 
forgive me because I did not call him in order.
    Dr. Gingrey. Indeed I do forgive you, Mr. Chairman. And 
thank you for the time.
    General Speakes and Sorenson, our brave sergeants and 
specialists, we appreciate your being with us today. Your last 
couple of questioners, many of us on this committee even, are 
not veterans. So you will get questions generated from the 
folks back home, and that is what we just heard, and very 
appropriate questions. I had a couple of situations recently--
well, one was about 15 months ago, one of our brave soldiers 
from my district, 48th Brigade Combat Team (BCT), part of our 
Army National Guard, was on a scout team and a Humvee that 
rolled down an embankment at night on a night patrol, and took 
them three hours actually to find this vehicle. It was under 
water, and all three of our soldiers were lost. More recently 
on Christmas Day, a soldier from my district was shot by a 
sniper. Now, he was not a turret gunner in a Humvee. He was on 
the roof of a building when this occurred.
    But I am concerned, those two particular cases, number one, 
in regard to the Humvee and the increased armor and protection, 
and we have reached the limit, as you have said, I think, 
earlier in your testimony, of what we can do to protect the 
vehicle, and the weight is such that this risk of rolling over 
and down an embankment and into a canal or whatever is pretty 
significant. I would like to know how well we are training 
maybe before deployment in regard to that as far as being able 
to maneuver these vehicles. And is there any possibility of 
having some sort of an automatic flare that would be released 
when one of these vehicles goes under water, submerged? This 
three-hour time delay--I think an unmanned aerial vehicle (UAV) 
finally located it. By that time, of course, it was far too 
late.
    The other issue in regard to the Navy corpsman actually who 
was protecting a marine unit and was shot by a sniper, do we 
have any way now to protect turret gunners and people like that 
from the increased accuracy of sniper fire?
    General Speakes. I guess the first thing I would like to do 
is--let me ask if it would be possible, sir, to ask Sergeant 
Jones particularly on the issue at the unit level, between you 
and Specialist Vanderkarr. How about talking about what you had 
in the way of safety protection equipment that we would put in 
the Humvee, and then what you are able to do in terms of 
training to try to help address it. We can take on the issue 
then of what we try to do with the vehicle itself to make it 
safer, because it is a major concern.
    Dr. Gingrey. Obviously, General, very difficult to get out 
of one of these vehicles when they are under water at night, 
and the heavy doors, et cetera.
    General Speakes. Absolutely. The first major tool that we 
have come up with, sir, we have taken essentially the cab of an 
up-armor Humvee and put it in a trainer that enables us to 
essentially do a rollover drill with the crew inside the 
vehicle, strapped into their vehicle, so they essentially learn 
what it is like to be upside down; and then how to escape the 
vehicle, admittedly in a benign environment. It is not at 
night, it is not under water in what would be a terribly 
disorienting environment.
    The other part that we have been able to do is take a look 
at the issue, which is you are accessing a vehicle. It was 
designed because it was initially going to be an Military 
Police (MP)-type vehicle to deny access from outside. So it 
made it--our first incidence with this we had a real problem 
with just getting the doors open. So what we have tried to do 
is to design what you essentially think of as a tire iron, 
which enables us to much more quickly lever the door open and 
to take a look at the doors from the standpoint you could open 
them more easily from the outside. We have also worked very, 
very hard.
    My own son was seriously injured in a Humvee rollover, no 
enemy contact, and the issue there was the seat belt that the 
original Humvee has come with is grossly inadequate. It is very 
hard to put on over your body armor. It is very, very hard to 
secure when you are in a combat environment. We have completely 
changed the seat belt of the up-armor Humvee and then 
retrofitted as many of the Humvees as we can. I think we have 
outfitted about 7,000 of our Humvees with this new seat belt, 
all in an effort to try to change the safety within the vehicle 
and your ability to egress the vehicle in case of an emergency.
    Let me ask Sergeant Jones to comment further.
    Sergeant Jones. Sir, what we did is we modified the Humvees 
as we were over there. They also installed cutters for your 
seat belt. Say your seat belt jammed up and froze up. You had a 
cutter inside the vehicle so you can actually cut yourself 
free.
    In regards to the vehicle that flipped over and was under 
water and it took three hours, at unit levels and risk 
assessments are done, but we never traveled alone. So with our 
unit, we were going down a road, we lost control, and we went 
into a canal system, there would be two other vehicles or three 
in the same vicinity that would have seen it and would have 
been able to respond appropriately. The vehicles have the 
winches to get them out.
    We do rollover drills. We make sure our load plans are 
correct so that the individuals aren't smacked in the head with 
loose equipment. And that is about all I can say on it, sir.
    Mr. Abercrombie. Thank you, Sergeant.
    Thank you, Phil.
    Dr. Gingrey. Thank you, Mr. Chairman. I see my time has 
expired. Thank you very much.
    Mr. Abercrombie. Mr. Johnson, thank you for your courtesy.
    Mr. Johnson. Thank you, Mr. Chairman.
    It is indeed a humble pleasure that I have in serving on 
this subcommittee and in serving on this full committee, and I 
am pretty much--goose pimples start to break out as I think of 
those who leave the safety of their homes and leave their loved 
ones to go into combat at the order of the authorities, 
civilian authorities, many of whom have never served in a war 
themselves, but yet they have the responsibility to commit our 
men and women to war. And that is what has happened in this 
Iraq war, and in this situation I believe we had some 
politicians who had gained authority to commit us to a war. 
They did it; many disagreed with it. I was among them. And men 
and women have served, served courageously and honorably, and 
for that I think all of us owe you all a debt of gratitude that 
we can never repay or that we can never fully show you, and so 
I just want to make that known right now.
    I have been kind of hard on those who have committed us to 
this war in Iraq during my service here on this committee over 
the last two weeks, but I definitely don't want anyone to think 
that that would have any influence on my responsibility to make 
sure that we have a first-rate military, second to none, fully 
equipped, that provides for the protection of our soldiers when 
they are called to serve. And so I look forward to fulfilling 
that obligation.
    And I want to ask some questions. I know that a lot of 
people watch the TV, and they see things on TV about the Active 
Protection System, and I am sure, Mr. Chairman, that you will 
probably ask some questions about this in much greater detail 
than I could ask.
    Mr. Abercrombie. Mr. Johnson, I assure you that if you have 
more detailed questions, we will submit them, and we will see 
not only an answer comes back to the committee, but to you 
personally in writing.
    Mr. Johnson. Thank you, sir.
    What I would like to do is if you can simply explain what 
an Active Protection System is, or what APS is, and what it is 
supposed to do. Either one of you.
    Mr. Abercrombie. Just before you answer, I do want to 
indicate to the Members and to the audience that we do have a 
second panel coming, as I indicated, and I think a lot of these 
questions will be more fully explained and explored during that 
panel.
    Go ahead.
    General Sorenson. Congressman, just to be short about it, 
essentially an Active Protection System is a capability that 
within a half a second is able to identify a particular threat, 
detect that threat, basically arm a weapon to intercept that 
threat, track it, and destroy it. And this type of technology, 
though it is almost like, if you will, Star Wars-type 
technology, because essentially you will have a bullet plus--
basically being destroyed by another type bullet, it is an 
extraordinarily useful capability, but at this point in time 
with all systems that we have evaluated, they are typically at 
a state with respect to development that they have passed 
developmental testing in terms of showing some promise, but 
have not got to the point that they are able to be fielded, nor 
are they able to be integrated into platforms, which, quite 
frankly, is the next step.
    Mr. Johnson. Well, I would suppose if that were prematurely 
done, then a lot of innocent life could be lost as a result.
    General Sorenson. That is correct, and quite frankly, I 
will tell you, based upon the data that we have and the 
evaluations that have been done, the equipment that we have 
currently deployed, which essentially is the slat armor on the 
Stryker, as an example, the reactive armor tiles we are putting 
on the Bradley and the reactive armor tiles we are also putting 
on the Stryker and soon to be the Abrams, those particular 
Active, if you will, Protection Systems--because they are kind 
of an active protection because they are reactive armor--are 
capable of defeating the RPG threat and have shown to be 
extraordinarily valuable to the soldiers who have used them to 
date. In fact, I can tell you without any equivocation that the 
responses that we have received from our soldiers of the fact 
that we have deployed these types of capabilities--we received 
very good and very complimentary compliments from the soldiers 
because they have saved lives because they are effective, and 
as the result of over 1,000-type RPG attacks, we have only had 
but a few soldiers killed because of that.
    Mr. Abercrombie. Thank you very much, General.
    Thank you, Mr. Johnson.
    Again, anybody who has further questions, submit them. We 
will get them to this panel or to the next and get detailed 
answers.
    Next, I am pleased to recognize Congressman Bishop from 
Utah.
    Mr. Bishop. Thank you, Mr. Chairman. I appreciate that. Mr. 
Chairman, I have realized, in my former life when I was here, 
that you always operated from back in this part of the panel, 
and in three terms, I never got past the front row in this 
room, and I just want to know how did you ever see down there. 
Did you have binoculars? opera glasses? How did you see that 
far from back here?
    Mr. Abercrombie. I used to have to warn Representative 
Larsen to watch his head in case the C-SPAN camera hit him on 
its way to swing up here.
    Mr. Bishop. I will not even touch that, but I do feel like 
I am in a different ZIP code.
    I do appreciate, Generals, both of you, what you do, not 
only your presentations, but what you do for this country and 
especially to Sergeant Jones and Specialist Vanderkarr, for 
what you do on a daily basis for all of us here and for the 
military, and I appreciate your being here. I do not really 
have specific questions for you, but I just wanted you to know 
that you are, indeed, the heroes, as is everybody who is in the 
military service who protects this country.
    I would like to ask a couple of questions simply about the 
relationship to the National Guard and to the equipment that 
they have and that may be with you, and I appreciate a couple 
of things you have done.
    In your discussions, already you have detailed, I think, 
and put to rest some of the idle chatter and idle comments that 
have gone around, and I appreciate the kind of emphasis you 
have on the new technology and efforts not only to secure 
vehicles, but also personal servicemen and their safety. I also 
realize and appreciate that you have said that there is a 
difficulty in, obviously, the amount of material you have for 
the Guard to prepare the equipment, that you are working on 
that, and I think you have made the appropriate choice as to 
where to put the emphasis.
    My question would be a couple of them as far as vehicles 
for the Guard to use, to be prepared, especially with the new 
deployment and the night vision that you have mentioned as well 
as the radio communication.
    If you had the money that was necessary to do the 
purchasing, what would be the time frame to actually produce 
and allocate this equipment to the Guards so they would be 
fully functional for training purposes?
    General Speakes. Sir, let me answer the question this way. 
At the current time, the Army Guard averages about 40 percent 
of equipment on hand against their tables of organization. They 
started this war at about 60 percent, so they have gone down. 
Why have they gone down? Two reasons.
    Number one, we changed the measuring stick. We used to hide 
unreadiness with something called the ``Authorized Level of 
Organization.'' what that was was a way to say we do not plan 
on using it any time soon, so where you should have 50 of these 
pieces of equipment, we are going to give you 10 and then call 
that enough, and so, on a readiness report, the fact that you 
had 10, that was good, and you showed as being fully ready. 
That was actually wrong, and it was collective risk-taking that 
we undertook as a part of the Cold War when we thought that the 
National Guard formed our deep faith and deep reserve at the 
strategic level.
    Now we recognize that the Army Guard and Army Reserve were 
part of our operational force, that they are going to go 
through a cycle of readiness and force generation along with 
the rest of the force. They are going to do it on a different 
timeline, but they are going to do it, and what we have got to 
do now is get the Army in step with that, and so, based upon 
the recent decisions that have been announced, what we are 
looking at now in collaboration with the Director of the Army 
Guard and the Chief of the Army Reserve is a process by which 
we identify the forces that are going to be called forward, and 
then we prioritize them for equipment issues.
    Now the great news is, unlike where we were a year or a 
year and a half ago, we are now starting to see equipment in 
substantial quantity that will be available to take care of 
this problem. Specifically, we just had an equipping conference 
in December, and this is an Army event that we do every six 
months. The Army is moving so fast now that what we are doing 
is taking and managing the flow of equipment.
    So, in this Army equipment conference, what did we do for 
the Army Guard? We planned a distribution in the next 18 months 
of $10.6 billion of equipment to the Guard. That is 180 tanks, 
505 Bradleys, 38,000 night vision goggles, 34,000 M4 machine 
guns, and 17,000 trucks, and so my answer would be this:
    We now have the assets that will be able to flow to the 
Guard and to flow to the Army Reserve to support them at a 
level of readiness consistent with the rest of the Army as we 
bring them along in this force generation. Over time then will 
flow this goodness across the entire force. Right now, we have 
a general trajectory that says that we are going to get to 
minimum levels of equipping probably by about fiscal year 2013. 
That relies on continued support for the Army, which, frankly, 
has been strong in the Congress, and with that continued 
support, we will be able to do the right thing by the Army 
Guard and the Army Reserve.
    Mr. Bishop. All right. In 2013. I appreciate that.
    You also mentioned the M4. I appreciate that one as well. I 
know, in a lot of Guards, they are still using the M16. Maybe 
you could just comment.
    From somebody who does not really know what I am talking 
about, it would seem that the M4 would be the weapon of choice 
to be using in these areas, and I realize my time just went 
off. Maybe just a quick comment.
    Mr. Abercrombie. Thirty seconds, General, please.
    General Speakes. Yes, sir.
    The bottom line is the M4 is the vehicle of choice for 
everybody here. They love that weapon. It has got great 
curbing. We are now peer-plating active component brigade 
combat teams in reserve component brigade combat teams that are 
going into the combat zone. We will continue to spread that 
goodness.
    Mr. Bishop. Thank you, sir.
    Mr. Abercrombie. Thank you.
    Representative Tauscher is next, who will be also chairing 
a committee.
    Ms. Tauscher. Thank you, Mr. Chairman, General Speakes and 
General Sorenson. Thank you so much for being here, and thank 
you for your service to the military, to the Army and to all of 
the joint operations that we have, especially to our deployed 
forces, and to the Sergeant and to the Specialist, thank you 
for your service and your great example to all Americans.
    You know, I think that we have a lot to be pleased about, 
Generals. We are long since the days in 2004 or in 2005 where 
we were slapping refrigerator doors on the side of trucks and 
hoping that that would help us a lot. We are now into a much 
more mechanized, a much more, I think, beyond test bed status 
where we actually know what we have to do to protect ourselves. 
We have a better sense of the adaptiveness of our enemy. We 
cannot quite meet them right at the same time with what they 
are doing, but we certainly are very quick to adapt ourselves, 
and we are very--I think much more of a technology-driven 
military in the sense that we are really aiding ourselves, in 
the kind of R&D that we are doing, to have other applications 
for the kinds of protection systems that you are putting 
together for our military. I just have two quick questions.
    General Speakes, in your testimony, you talked about 
developing an interim modification for the current body armor 
system because we have some mobility issues; we have some 
medical access issues, but I understand that the Marines are 
also just finishing procuring a new body armor system.
    Do we need two? Isn't theirs good enough? Can we, perhaps, 
piggyback on what they have done and just go right into the 
procurement phase of that?
    And the second question is really about this idea of Rapid 
Fielding Initiative (RFI), talking about how we quickly get 
ourselves through R&D and into deployment.
    Can you talk about that, too?
    General Sorenson. Let me address the first question.
    We do work collaboratively with the Marines, and though 
they have made some improvements and changes to their, if you 
will, vests and body armor, we are doing in many cases the same 
thing. Now, I will tell you that we have had our particular 
soldiers down at the soldier center down at Fort Benning do the 
evaluation, and they have evaluated various sets of body armor, 
and we are right now postured to--as it is, as we have 
developed what we have, as I said, we have gone through seven 
improvements of our particular suite, both the outer tactical 
vests, the plates--the side plates--the deltoid protectors, and 
as a consequence, what we are into now is, because that was a, 
if you will--not altogether a slap-together--but essentially, 
we add a vest; we put in pockets; we put in this; we add this. 
It was not integrated.
    Ms. Tauscher. Right.
    General Sorenson. So we have gone back to working with the 
science and technology and working with human engineering to 
get to a point where we have an integrated capability that 
satisfies, in many cases, some of the issues that they had with 
respect to just getting out of the body armor--quick releases--
the ability for that particular body armor to almost be a load-
bearing capability so that maybe it is 30 pounds, but because 
of the way it is structured and because of the way it is built, 
they do not essentially feel that they are walking around with 
30 pounds.
    So, as a consequence, we basically respond with our 
particular user down at Fort Benning, and to date, they have 
found exactly--with the capability that we have provided, it is 
better than what anybody else has.
    Ms. Tauscher. One of the complaints I hear from soldiers in 
the field--not a complaint, by the way--is that they are hoping 
that the next generation of body armor adds value other than 
just being a protective device.
    Is this what you are alluding to?
    General Sorenson. Yes. I mean, as well, there will be 
communication suites. Part of it--I mean, we are developing, if 
you will, the next version that will be almost a shell that 
will be for communications, for protection. It will also have, 
if you will, biometric capabilities.
    Ms. Tauscher. So it is one-stop shopping, and basically, 
you put it on, and you basically can then go out the door, and 
you have got virtually everything you need to protect yourself, 
to have calm, to be identified, the whole nine yards.
    General Sorenson. Right, but again, I just want to caution, 
this is still in the development stage. It is not, if you will, 
something they are ready to deploy right now. What we have 
given them is the best capability that exists in the world 
today.
    Ms. Tauscher. And, the Rapid Fielding Initiative, is part 
of this very kind of shortened R&D onto the field type of 
operation?
    General Sorenson. The Rapid Fielding Initiative is 
essentially the ability at this point in time to equip our 
soldiers with types of systems and types of capabilities they 
have never had before in terms of need protection capability, 
in terms of particular undergarments, night vision-type 
systems, different helmets, et cetera. That is essentially a 
composite type of capability that the soldiers, quite frankly, 
have voted on. This was done by taking teams into Afghanistan, 
teams into Iraq, doing surveys of what type of capability would 
they like to have--you know, carrying shovels, carrying 
daggers, carrying a bunch of other types of capabilities that 
we have talked to as well as RFI.
    Now, there is another system which we call the ``Rapid 
Equipment Force,'' which essentially goes out and looks at 
types of systems that we could take off the shelf because the 
soldiers have basically said, ``We think we can use some of 
these things,'' and we began to deploy that, and that is 
another aspect where are trying to get capability rapidly to 
the force.
    Ms. Tauscher. Mr. Chairman, if I could just indulge you for 
a second, in a little interaction with you for a second.
    Mr. Abercrombie. Certainly.
    Ms. Tauscher. Mr. Chairman, I think what the generals are 
talking about is proving to be very effective on the ground. My 
only concern is that procurement on the run, as you are trying 
to do the best you can for our forces in the field, is hard to 
manage, and I just want to be sure that you have the kind of 
management systems and procurement systems that, once you find 
the Sergeant and the Specialist actually saying, ``This is our 
suite that we want. This is what is going to work for us 
now''--considering that we have different soldiers with 
different missions on the ground that need different things, I 
just hope, Mr. Chairman, that you will use your great office to 
make sure that we are backing up to have the kind of correct 
and proper systems on procurement and that we are doing the 
things we are meant to do in the bidding process and that we 
get the right stuff.
    Mr. Abercrombie. That is a good point. We have already been 
discussing language that we can provide, if it is necessary, 
that will give both the Army and the Marine Corps flexibility 
to move to the procurement stage with more dispatch, I think is 
the best way to put it.
    General Sorenson. And I will tell you that this is 
basically under one person in the Army, so he has complete 
management authority of all of these protective systems, and 
there is a core set that is essentially given to every soldier, 
and then depending upon whether you are an air warrior, a 
ground warrior, a mountain warrior, you get extra systems 
because of what type of capability you are going to be 
functioning within.
    Ms. Tauscher. Mr. Chairman, I think we are all for a rapid, 
flexible system, but we need one that has transparency, too.
    Mr. Abercrombie. Oh, yes. Do not worry, and I cannot 
imagine this getting past Mr. Murtha without it, so----
    Ms. Tauscher. Thank you, Mr. Chairman.
    Mr. Abercrombie. That is a fair statement, again for the 
record, right? Because we have had discussions off the record 
and under classified auspices, but we are working precisely the 
question and in the context that Representative Tauscher 
raised, right? Working to see that that gets accomplished. Now, 
some of it may not need legislative activity at all. It may 
merely be an administrative situation. Some of it is 
reprogramming authority. Some of it may entail legislation, 
itself, but we are on that issue.
    Ms. Tauscher. Thank you.
    Mr. Abercrombie. Is that a fair statement?
    General Sorenson. Mr. Chairman, that is a fair statement.
    Mr. Abercrombie. Okay. Mr. LoBiondo, I thank you for your 
patience and your courtesy also in experimenting with this new 
format.
    Mr. LoBiondo. You are in charge, Mr. Chairman. Thank you 
very much.
    Thank you very much for being here. You have shed a lot of 
light on the body armor issue, which is a topic very important 
to many of us. I have a constituent, a dad, a couple of months 
ago who contacted me, and he has two sons that are in the Army 
infantry. They are very proud to serve their country. They are 
in theater. He is very proud of them. He had a concern about 
body armor, and General, you suggested that there was a lot of 
misinformation about, I guess, the Dragon Skin body armor and 
its capability relating to the interceptor, but this dad came 
to me convinced that he had fully researched on his own and in 
conjunction with information that his sons had fed back to 
him--excuse me--with some of their colleagues, that they talked 
amongst themselves, some soldiers that were talking amongst 
themselves, that there was some thought that the Dragon Skin 
might have been better safety protection.
    Now, you have addressed that, but I do not know what we can 
do for this dad to be able to convince him that the Army was 
correct in providing the best possible product of safety, 
because his next question to me was he wanted to buy the Dragon 
Skin and provide it for his sons because they felt it was the 
best out there.
    How do we deal with something like that? How do I convince 
this dad that we are taking all of the steps to ensure what you 
have said? How does that get communicated that they are 
satisfied that the process we go through in identifying the 
most effective body armor is a sound process and that his sons 
are being protected to the best of technological abilities?
    General Sorenson. Sir, if I could answer that question.
    I can tell you unequivocally that the armor that the 
soldiers are wearing today is the best available in the world. 
Now, having spent some time working with the dragon skin in the 
Pinnacle Company with respect to what their allegations were, 
with respect to what their capabilities were, I would be happy 
to come back to you and give you a more detailed presentation 
of the test results that we did with an independent lab that 
demonstrated that those systems were not nearly as capable or 
functional as the body armor that the soldiers are given today, 
and I can only tell that father that he has to understand that 
there are going to be many companies that are going to come and 
make allegations of a capability that is out there that is 
better than what the Army has basically given our soldiers, but 
every time we have taken them to task and put them into the 
test environment, they have not been able to prove what their 
allegations are.
    Mr. LoBiondo. I thank you. So I am on safe ground if I 
contact the dad, relate the conversation that we have had and 
offer, if he wants, a detailed, technical backup to what you 
are saying and that that can be provided?
    General Sorenson. Sir, we can give him a technical backup 
to a certain extent. I was, again, offering the opportunity to 
give you a more detailed classified briefing, but we can 
certainly present to him with the information in some 
unclassified manner to demonstrate to the fact that the 
soldiers today who are wearing the body armor we have provided 
is the best capable in the world.
    Mr. LoBiondo. Okay. I appreciate the offer to better help 
me understand it, but I am really interested in communicating 
with the dad so that he is satisfied. I do not want to put you 
through any hoops unless there is a specific request for it, 
but I thank you very much.
    General Sorenson. Sir, we can do that without any problem.
    Mr. LoBiondo. Okay. Thank you very much.
    Mr. Abercrombie. Mr. Saxton.
    Now, may I say that Mr. Saxton has some questions and 
observations. I have a couple, and then we will go right to our 
second panel.
    Mr. Saxton. Very quickly, when we started to realize that 
the equipment that we had did not offer the kind of protection 
that our soldiers needed and deserved, I think we moved fairly 
quickly to put in place a process to correct the situation. I 
can remember being in Tikrit, and General Odierno took us out 
and showed us a 5-ton truck which had 2x4 sides built on it in 
such a way that you could slide sandbags in between the racks 
created by the 2x4 structure, and next to it sat a Humvee where 
General Odierno's people had gone to downtown Tikrit and found 
some steel in a welding shop and welded the steel on the side 
of the door, and we started from there, and Mr. Abercrombie and 
I and others, particularly the chairman of the committee at the 
time, Mr. Hunter, spent a lot of time here trying to figure out 
how we could help you put in place the process that has emerged 
from all of this, and I think it has, by and large, been a 
fairly successful process.
    My question is this: We did most of that, from our point of 
view, with supplemental funding, which meant that we gave you 
the latitude to use the money for refit and for other things 
the way you needed to use it. There has been some talk more 
recently about doing this through the regular authorization and 
budget and appropriations process.
    Give us an idea about how you think that would work or 
whether it would impede the process that we are currently 
using. What are your thoughts about the supplemental process 
and the budget process that we use under normal order?
    General Speakes. Sir, let me try a quick answer, and then I 
will turn it over to General Sorenson.
    In the initial stages of this war, the only choice we had 
is supplemental funding. The base program was grossly 
inadequate for the needs of war. We needed immediate help. You 
gave it to us. Increasingly now, we look at supplemental 
funding as not the desirable way to manage the Army's fiscal 
requirements. We see this as a long-term commitment that we 
have to produce an army that is ready to do what you want it to 
do, what American citizens expect.
    What that means then is that we are increasingly committed 
to putting ourselves in a more predictable environment where we 
can plan for the long-term and ensure that we have good 
economic processes, good systems in place to continue to grow 
the Army and heal the Army.
    So we are now of the mind that the base program has to 
reflect the needs of an army that is now larger and has a 
higher operating tempo than anything we could have envisioned 
five or six or seven years ago. We believe that the Army and 
the Department of Defense is moving in that direction. We think 
that is good.
    General Sorenson. Representative Saxton, I guess I would 
say--and this has clearly been an issue that I have struggled 
with as an acquisition professional for a number of years. The 
problem becomes in terms of the cycle, itself. Now, most 
recently, we have just basically provided to you what we think 
to be our fiscal year 2008 budget. Now, there is no 
clairvoyance here in terms of what is going to be in fiscal 
year 2008, but we have done the best plan for what we think is 
going to be in fiscal year 2008.
    The difficulty becomes, in terms of the budget process and 
the time afforded to that particular lengthy process, that, by 
the time we put in our particular proposal--it gets evaluated; 
it gets approved; it gets signed--the entire world has changed 
by the time that becomes something we go off and execute, and 
so I have continued to advocate, in terms of the budget 
process, itself, for some type of flexibility account that 
provides the ability to make these adjustments in terms of 
``unknown unknowns,'' which today we do not have any idea what 
fiscal year 2008 is going to be, and as a consequence, 
providing that particular adjustment would give us additional 
flexibility, and we are going to do our best to take what we 
know to be our requirements and put those into the base budget, 
but I, again, come back to you with respect to saying that we 
do not know everything, and we do not have the clairvoyance, 
and so, without that flexibility, we are going to have to 
continue to go through hoops to get reprogramming actions and 
all of these other efforts basically funded because these 
soldiers, in many cases, have needs that appear in fiscal year 
2008 that we cannot forecast at the present time.
    Mr. Saxton. I thank you both for the very clear response, 
and I would just conclude with this, Mr. Chairman.
    You mentioned ``flexibility'' language. I am for that. 
Absent that, I suspect that we will continue to see a request 
for supplemental appropriations bills, and I would think that 
we would all like to, as the generals would, see an account 
with some flexibility to permit the kinds of changes that may 
be necessary as we go forward. Thank you.
    Mr. Abercrombie. Thank you very much, Mr. Saxton.
    A couple of questions with regard to, first, the body 
armor. If you would prefer to answer this in writing later to 
explicate a little more, that would be fine, but just, if you 
could give a brief overview, or just a response.
    What is the status of the body armor industrial base? It is 
all well and good for us to get involved in ``flexibility'' 
language and to try to move to procurement and get 
reprogramming, et cetera, but if the industrial base is not 
there, if the capacity to actually produce it is not there, all 
of that goes for not. So I am interested in that, the status of 
the body armor industrial base.
    Also, how many vendors are you currently using to produce 
vests and plates? This is not like producing potato chips, you 
know, that we can make more kind of thing. This is highly 
specialized. I also use in another context the industrial base 
to be able to build a modern submarine. It is not the same 
thing as turning out a bicycle, and you cannot put the 
specialized personnel required to build a submarine in a deep 
freeze and then bring them out when you feel it is necessary.
    So I am interested in who are the vendors. What is the 
status of the industrial base, and are there any material 
constraints literally that would disenable you from being able 
to respond to a surge in requirements, an increase in 
requirements?
    As the general points out, we do not know for sure what is 
going to happen, even in the rest of 2007, let alone in 2008. 
We can make educated guesses and try and anticipate, but are 
there any constraints in terms of the kind of materials that 
are available? of the logistical problems associated either 
with the industrial base or with the number of vendors or with 
the quality of the vendors that are available?
    General Sorenson. Chairman, let me try to answer that 
question. To date, we basically have about two vendors that 
essentially do the Outer Tactical Vest (OTV), who basically can 
produce that, and about six vendors who can produce the, if you 
will, small arms protective insert (SAPI) plates, side plates, 
and things of that nature. I would say, at this point in time, 
we have built that industrial base from, essentially, almost 
one mom-and-pop company to what we have today. We are trying to 
maintain that particular industrial base by ensuring that we 
have, if you will, a fixed quantity of capability being 
delivered such that we can sustain them in some sort of 
operation so they----
    Mr. Abercrombie. That is why it is good to get this stuff 
into a regular budget process, right?
    General Sorenson. That is correct.
    Mr. Abercrombie [continuing]. And the right kind of 
spending language in there for you so that we do not have to 
go, as Mr. Saxton has indicated, into a supplemental budget so 
often, which has its own limitations.
    General Sorenson. Correct. Correct.
    But I would say, at this point in time, suffice it to say, 
we have a robust industrial base with respect to developing 
this body armor, and we also have the capability to surge.
    Mr. Abercrombie. Okay. Fine.
    Then having to do with the resistant ambush protected 
vehicles, I will ask two or three things here, if that is okay, 
that I think are related.
    I want to know, as to the quantity requirements that we are 
talking about with regard to the mine resistant vehicles, the 
quantity, the operational need statement that you have, has the 
quantity been validated?
    General Sorenson. The requirement, as we are working on 
right now that we essentially put out an RFP on, is 
essentially----
    Mr. Abercrombie. Can you explain what ``validated'' mean 
for those who----
    General Sorenson. Yes.
    Mr. Abercrombie [continuing]. Might think it is quality 
control or something like that?
    General Sorenson. Right. Yes, Chairman.
    ``Validated'' means that the request has come in from 
theater. It has gone through the headquarters, through the 
Joint Staff. It has essentially been identified as a 
requirement that everybody understands what needs to be done. 
Funding has basically been set and in terms of identified for 
what is going to be required to develop that, and so the 
requirement has been validated from an operational statement, 
both at the commanders in the field as well as the headquarters 
both for the Marine Corps as well as the Army and the Joint 
Staff.
    Mr. Abercrombie. That takes me to the next question.
    How do you plan to resource that requirement then?
    General Sorenson. At the present time, we are resourcing 
that through our supplemental funds both in the Army as well as 
in the Marines.
    Mr. Abercrombie. At the present time?
    General Sorenson. At the present time.
    Mr. Abercrombie. When that is done, will that enable you to 
get into a regular budget cycle as you project toward 2008?
    General Sorenson. Sir, it depends at this point in time on, 
I would say, the quantity of vehicles we decide to go back and 
procure. We are looking at this as a very limited----
    Mr. Abercrombie. Can you let us know that as we try to make 
our recommendations for this budget cycle?
    General Sorenson. Correct.
    Mr. Abercrombie. Because I do not want to deal with 
supplementals to the degree and extent I can avoid it.
    Do you agree that that is a rational and a reasonable way 
to think?
    General Sorenson. I would think that is rational and 
reasonable, but I would say at this point----
    Mr. Abercrombie. We want to work with you, in other words.
    General Sorenson. I appreciate that.
    Mr. Abercrombie. Okay. What do you think is the biggest 
challenge then in quickly fielding it? I realize I have, in a 
sense, asked this question already, but is it the flexibility 
question and the language question or not?
    What is the biggest challenge that this subcommittee should 
look at as it moves toward recommending to the full committee 
and on to the appropriators and on to the floor of the House?
    General Sorenson. I think there will be two challenges.
    First of all, we need to make sure that we do have all of 
the appropriate funding to go buy these vehicles, is point one. 
Point two would be that we will be looking at an industrial 
base that will probably include more than one vendor, and the 
reason we are going to do more than one vendor is because there 
is particular production schedules right now that we are 
demanding in terms of the ``ability to deploy'' capability that 
we are not sure, in many cases, they will be able to satisfy 
the requirements, so we will have to go on to maybe two, three, 
maybe four vendors depending upon the types of systems we 
decide to go procure. So ramping that production line up will 
probably be the next challenge.
    Mr. Abercrombie. Is that something that you would have to 
handle yourself or is that something you would just observe? I 
should have been more specific.
    What do you see as the biggest challenge in fielding that 
this subcommittee can deal with?
    General Sorenson. I think the biggest challenge where you 
can help----
    Mr. Abercrombie. It sounded a little bit, when you said 
that, like I should stand on the side and cheerlead.
    General Sorenson [continuing]. Is in the funding. The 
biggest challenge will be the funding.
    Mr. Abercrombie. Is the funding adequately asked for either 
in the present budget request that will be made and/or any 
supplemental request that you are familiar with?
    General Sorenson. To the best of my knowledge, with respect 
to what we have asked for in increment one, we have put in what 
we requested and what we need.
    Mr. Abercrombie. And what you need. Okay.
    General Sorenson. There will also be some reprogramming 
actions that will be coming forward, specifically from the 
Army, in order to meet the requirement to fund this particular 
capability.
    Mr. Abercrombie. Time out.
    Do I understand you correctly that you think you have the 
funds now?
    General Sorenson. No, I didn't say that. I said we have--we 
will--we have programmed what we think we are going to need.
    Mr. Abercrombie. Yes.
    General Sorenson. We are going to be basically putting in a 
reprogramming action for first increment, and we will be laying 
out a budget in terms of what we think we are going to require 
for this particular capability. So we do not have the funds 
available at this time, no.
    Mr. Abercrombie. So what are you going to reprogram? I am a 
little confused now. I thought the reprogramming was existing 
funds that would move you, as General Speakes indicated, into 
what might be a difficult situation but, nonetheless, one you 
are able to keep up with with the new brigades going into 
Baghdad, et cetera. So I think I am misunderstanding you then.
    General Sorenson. On the schedule as we have it right now--
on the schedule we have right now, we are attempting to make an 
award of a contract for any number of particular vendors at the 
end of the month. That particular contract will then basically 
allow each vendor to provide two vehicles--one to go through a 
performance evaluation, one to go through, if you will, a 
destruct evaluation.
    Based upon those evaluations that will take place over the 
next few months, we will then make contract awards in about the 
April-May time frame with expected deliveries in July.
    The Marine Corps basically put in their request money to do 
this initially. The Army, at this point in time, is going to 
have to go through a reprogramming action to essentially find 
those funds and then ultimately alter some other plans down the 
road to provide the funds necessary to procure these systems, 
and I will let General Speakes add to that, if he will.
    General Speakes. Sir, what General Sorenson said is exactly 
right. We, right now, are planning the reprogramming of about 
$70 million that we will need for this initial increment.
    Mr. Abercrombie. Okay. And you can do that in July?
    General Sorenson. We will need those funds prior to July. 
We will probably need those in March, but at this point in 
time, we are waiting to find out whether or not we get our main 
supplemental. If we get that in time, we will use those funds. 
If we do not get those funds in time, we will have to reprogram 
the funds right now.
    Mr. Abercrombie. Okay. I understand now because I want to 
differentiate what needs to be done----
    General Sorenson. Correct.
    Mr. Abercrombie [continuing]. There from what we are going 
to be recommending in terms of the 2008 budget; is that clear?
    General Speakes. Yes, sir, that is correct, and I think the 
tortuous explanation that General Sorenson and I gave you 
illustrates the challenge that he was outlining earlier, which 
is the base program, and that system works very well for a 
simple mechanical process--buying more night vision goggles.
    Mr. Abercrombie. Right.
    General Speakes. When we are talking about evolving needs 
of war, this identification of the requirement, then finding 
the bill payer, the money----
    Mr. Abercrombie. Got it.
    General Speakes [continuing]. And then getting the 
authority to reprogram, working through the Army, working 
through----
    Mr. Abercrombie. That is why we need to anticipate as much 
as we can in the regular budget process so that you do not have 
to go into this elliptical process. Let me put it that way, 
okay? Thank you.
    Now, the last thing. Yesterday--you folks were at the--you 
had folks at the Seapower hearing. The Army was there. I think 
General Kelly was there and some others, but when we asked them 
about it, they indicated the Mine Resistant Ambush Protected 
Vehicle, the total for the Marines, the Army and the Navy was 
4,060, and if I have your testimony right, General Speakes, we 
are talking close to 6,500--6,400, 6.500. That is a difference 
of 2,400 vehicles. Are we talking different kinds of vehicles 
or am I mixed up on the numbers?
    General Speakes. Sir, I think the requirement from the 
standpoint of the Army is very clear. 2,500 is its initial 
increment that we are going after. I think, as we take a look 
at how the program is evolving, it is going to have Part one 
and Part two, and I think that what my statement does is allude 
to what is referred to as Part two of the total Army-Marine 
Corps program.
    Mr. Abercrombie. So those numbers probably can be 
reconciled?
    General Speakes. Yes, sir, they can.
    Mr. Abercrombie. Okay, and you folks are staying in close 
touch with the Marine Corps?
    General Sorenson. Absolutely.
    Mr. Abercrombie. Okay. Mr. Reyes just came in, and I want 
to give him an opportunity to ask a question, and then we will 
go to the second panel that I want to thank in advance for 
being so patient.
    Mr. Reyes. Thank you, Mr. Chairman, and I apologize, but I 
just finished up with my own hearing in Intelligence.
    I wanted to try and get an update because I understand that 
you have addressed some of the issues of crew protection within 
the vehicles, and I was wanting to find out where we are on 
procurement of suspension seats because of the threat of 
concussions that have been hurting and injuring our military 
personnel, both in Iraq and Afghanistan.
    General Speakes. Sir, the first point we make is you have 
identified one of the key discoveries that we have made, which 
is that the existing seats in most of our combat vehicles are 
suspended from the floor of the vehicle, and obviously then, 
when you are subjected to a blast and concussion from the 
bottom of the vehicle, what you are doing is directly 
transmitting to the human being who is seated on that seat all 
of the blast that we are getting out of this explosion.
    So the evolution now--and we are seeing a lot of 
technology--is to go ahead and suspend the seat essentially in 
the same way as you would a hammock, from the top and sides of 
the vehicle, so that you are able to absorb the recoil and not 
have it all come into the human being directly through the 
seat. That is the basic issue here, and now what we are in the 
process of essentially doing is trying to identify new vehicles 
that have that, as part of their basic operating requirements 
and then, where we can, back-fitting existing platforms with 
this capability.
    Mr. Reyes. And exactly where are we in that process in 
terms of giving our military personnel that survivability in 
both theaters? Where are we on that? Is it an R&D issue or is 
it a Procurement issue? Where exactly are we with that?
    General Sorenson. It not really an R&D issue. We have done 
some testing. We do have some seats that we have identified, 
and we are going to begin to procure those.
    Mr. Reyes. And so is there a time frame that you could give 
the committee?
    General Sorenson. Representative Reyes, if I could take 
that for the record, I will come back and give you a more 
specific answer. I am looking here at some data, but I think I 
could come back and give you a more definitive answer in terms 
of time frame, and we will have those completed for the systems 
that we are basically putting them on.
    Mr. Reyes. Okay. That is acceptable so that we have a good 
understanding of where we are with that.
    The other issue is the one that I have raised with both of 
you gentlemen before, and that is the danger of carrying extra 
fuel primarily in Afghanistan. That has been one of the big 
issues that, when convoys get attacked or vehicles get 
attacked, they run the risk of an explosion because of the 
necessity to carry extra fuel in order to complete their 
patrols.
    Have you looked at this, and what have we determined on 
that?
    General Sorenson. Yes. Excuse me, Congressman.
    Yes, we have. We have actually developed a capability. We 
have tested it. We have basically got it approved, and we are 
in the process again of procuring it.
    At this present time, we have identified a need for some 
additional funds. We basically put out 1,000 of these systems, 
and so we are looking right now. Within the Army, we need about 
another $3 million to essentially procure some additional 
systems, and we are pursuing that currently inside the Army to 
essentially find those funds to go out and buy this.
    Mr. Reyes. If the committee can be of assistance, please 
let us know, because that is vital. I have visited way too many 
that have been burned because of the necessity to carry extra 
fuel.
    General Sorenson. And, again, we appreciate that, but right 
now, I think we are working it within the Army.
    Mr. Reyes. Very good. Thank you both for being here.
    Thank you, Mr. Chairman.
    Mr. Abercrombie. Thanks, Mr. Reyes.
    Thank you very much to both of you. I appreciate it. I do 
not think there was a wasted word in there, and I thank 
Sergeant Jones and Specialist Vanderkarr, too.
    If there is anything you two can think of that you would 
like to communicate to us by way of a note or an observation or 
two after listening to the whole hearing, I would be very 
appreciative of receiving it, and I will see that the members 
get it as well, and we thank you for your service.
    Next, I will ask then Dr. Buhrkuhl, Robert Buhrkuhl, who is 
the Director of the Joint Rapid Acquisition Cell in the Office 
of the Under Secretary of Defense for Acquisition, Technology 
and Logistics; Captain Joseph McGettigan, Commanding Officer of 
the Naval Surface Warfare Design Center in Dahlgren; Mr. Philip 
Coyle, who is a Senior Advisor to the Center for Defense 
Information and the former Director of the Operational Test and 
Development, Office of the Secretary of Defense; and an old 
friend of this committee--this subcommittee and the committees 
of old--Mr. Ray DuBois, Junior, who now is the Senior Advisor 
for the Center for Strategic and International Studies, but we 
first got to know him as the former Acting Under Secretary of 
the Army, and I am very pleased to see you again, Ray.
    If we went to presentations, Gentlemen, we could take 
anywhere from, you know, 16 minutes to 20 minutes just to get 
to that, and we have already abused your patience sufficiently, 
and there are not a whole lot of members here. Maybe I could 
get--just outline a couple of things, and maybe you could get--
I will go to the members right away, and maybe we could just 
get very succinct summaries from you as to what you would like 
to present today because you have probably all talked to one 
another in various contexts already, so it will give us an 
opportunity to move forward.
    I also invited today, for your information, NBC News to 
come, but they declined to appear before the committee and 
really declined to respond, which I found unfortunate. I was 
not trying to skewer the media. It is generally not a good idea 
to fight with people with ink by the barrel or who have cable 
subscribers by the thousands, but the plain fact is that people 
get their news or their views or their perspective in many 
instances from catching reports on the fly.
    I see Mr. DuBois especially understands what it is to have 
to deal with that, and so it then becomes difficult for us to 
get the actual information out.
    The point here is that Active Protection Systems are 
designed to protect ground combat vehicles from an array of 
threats, and in particular, the Trophy System was mentioned, at 
least briefly, in the previous panel. It is currently designed 
for protection of a particular kind of tank against a rocket-
propelled grenade and antitank-guided missiles and because of 
the short timelines that are required to counter these threats 
with an Active Protection System and the human factor that is 
involved in that. Once armed until disarmed, they operate 
automatically to detect and fire at incoming rockets, missiles 
and other threats. That is the idea any way, and as of now, 
there are no operational U.S. Active Protection Systems.
    So we addressed this Active Protection System question last 
September in this subcommittee in part because of the NBC News 
segments on the issue, and unfortunately, we determined then 
that NBC, in several instances, misrepresented the facts 
through implication or the misuse of quotes of others. That is 
not hard to do--we have all experienced that kind of 
situation--but last September, NBC used a quote to say that the 
Active Protection System called ``Trophy'' was operationally 
ready for deployment and implied that the United States was not 
acting in a manner commensurate with the abilities of this 
Trophy system to provide that kind of protection.
    The first operational system we determined would not be 
available until January of next year, 15 months after they 
implied it, and they stated as well that 132 lives have been 
lost in Iraq and implied that, if the Trophy had been employed 
in the combat vehicles there, those lives might have been 
saved. It is easy to see why we would become or why it was 
likely to see a defensive attitude, because no one likes to be 
in a situation where constituents or citizens would feel that 
we have been negligent or derelict in our duty with respect to 
providing the necessary equipment.
    Early this month, NBC stated the Army's own engineers, when 
evaluating the Active Protection System, gave Trophy high 
marks, citing analysis that they had acquired from the Army. 
Yet, when we reviewed that same Army analysis, we noted that 
those same Army engineers rated, as General Sorenson indicated 
in the previous panel, that the slat armor protection, the 
system currently deployed in Iraq, rated higher than the 
Trophy. It was very disconcerting for me to see a--well, not 
just the misrepresentation but a chart, to see a chart that 
listed all of the test scores, and NBC left out the one with 
the highest test score, which is what the Army was using. It 
reminded me of Watergate when Bernstein and Woodward were 
dumbfounded when they came up to somebody and said, ``But you 
did not tell us that,'' and he said, ``Well, you never asked 
the question. You know, I didn't lie to you.'' it is like Jake 
and Elwood Blues in the Blues Brothers. He said, ``You lied to 
me.'' he said, ``I never lied to you. I BS'd you a little bit, 
but I never lied to you.'' well, NBC apparently has taken after 
the Blues Brothers.
    The obvious question is that the existing combination of 
slat armor and reactive armor provide greater protection than 
Trophy. This is my understanding, and I am hoping to get 
something more from you folks today. There remains, obviously, 
what CENTCOM validated. We talked about what ``validation'' was 
before in the last panel and the requirement to get an Active 
Protection System.
    So the objective of this discussion of Active Protection 
Systems is to get the facts. I do not want to have--and I think 
Mr. Saxton agrees with me. We do not want to have the general 
public with a misunderstanding or a misapprehension of what the 
Active Protection Systems are all about or to think that by 
knowing something or hearing something in part from an NBC 
excerpt that they have the full story, and so what this panel 
can do today, I think, is a big service in terms of providing a 
perspective, providing an analysis, providing an understanding 
for Members of the Congress and for the public at large as to 
what we are talking about, why we are talking about it and what 
the implications are for our fighting men and women and, 
further, what the implications are in terms of the requirement 
of the republic to support those men and women.
    We want to go on the record so Congress can properly judge 
the decisions made by the Army and properly judge as to what 
our decisions should be in support of the Army.
    Mr. Saxton, you will pass? Okay.
    Then why don't we go for brief, let us say, reactions to 
that and anything you think you need to add with regard to the 
Active Protection Systems from your point of view, and state 
why you have that point of view given your professional 
responsibility as you sit at the table.
    And I will start with you, General.
    General Sorenson. Thank you, Chairman Abercrombie, Ranking 
Member Saxton and distinguished members of the House Armed 
Services Committee.
    I would like to express my appreciation for the opportunity 
to appear before this committee to discuss the Army's 
continuing efforts to improve the force protection capabilities 
of our soldiers, specifically Combat Vehicle Active Protection 
Systems known as ``APS.''
    I want to be sure that you know that the Army is absolutely 
committed to making sure our soldiers have the best force 
protection capability and Active Protection Systems available. 
However, the systems we provide the soldiers must meet the 
current threat and must be proven, tested and validated. We 
will not give our soldiers a false sense of security by 
fielding systems not vigorously tested in an operational 
environment.
    Every soldier is important, and each loss of life is 
tragic. Over the past several years, the Army has taken several 
steps to counter the rocket-propelled grenade, otherwise known 
as RPG, threat, and we will continue to modernize our force 
protection capabilities for future threats. As shown in detail 
in the classified session of which we have some unclassified 
documents that we can talk to, the RPG threat to our combat 
systems is considerably less than what has been reported in the 
press. In fact, the major threat to our forces is improved 
explosive devices, otherwise known as ``IEDs,'' especially for 
our wheeled vehicle fleets.
    To date, the Army has fielded 983 sets of gravity reactive 
Army tiles, 1,097 sets of M-113 slat armor kits, and the first 
brigade set of Stryker reactive armor kits are now available 
for immediate deployment. These reactive armor and slat armor 
protection systems contribute greatly to protecting our combat 
systems to defeat RPG threats without the use of Active 
Protection Systems.
    The Army, through the Future Combat Systems (FCS) Program, 
is diligently proceeding on a path to obtain a hemispherical 
bubble of active protection for current forces against short-
range threats while developing in parallel a common full-
spectrum-capable APS as part of the hit and avoid subsystem for 
the Future Combat System, man-ground vehicles. The full-
spectrum solution will counter both short- and long-range 
targets, and it will continue to provide the required 360-
degree hemispherical bubble of protection. The Army's solution 
will be common to the current force and upgradable over time to 
counter these evolving threats.
    There are a number of U.S.- and foreign-based Active 
Protection Systems under development. However, none of these 
systems can be immediately integrated into our combat systems 
today, including the Trophy system. Additionally, challenges 
exist in developing, integrating and fielding APS systems that 
minimize collateral damage to soldiers and noncombatants while 
ensuring the right to self-defense.
    The Army considers Trophy a prototype that has not been 
operationally validated nor has it been proven in an 
operational environment as proclaimed. In the summer of 2005, 
the FCS lead system integrator issued a solicitation for a 
common, full-spectrum APS system as part of the hit avoidance 
subsystem for the man-ground vehicles. The U.S. sponsor for the 
Trophy system was one of three offers who submitted a proposal 
for the full and open best value source selection process. 
After a thorough source selection evaluation, Trophy was not 
selected. The Active Protection System selected by the Army to 
address the short-range threat was the only APS system that 
could address the 360-degree hemispherical protection 
requirement.
    Additionally, there have been no challenges or protests of 
this subcontract award followed by the unsuccessful offers, 
including the sponsor of the Trophy system.
    I would like to reiterate that the Army is absolutely 
committed to providing our soldiers the best protection 
available, including APS. However, the Army will not procure or 
field any system not proven, tested or validated to be 
operationally safe or ready. Our currently fielded 
countermeasuring systems, including slat and reactive armor 
tiles provide deployed soldiers excellent RPG protection, and 
we are intent on incorporating as soon as possible a full-
spectrum APS capability into both our current and our Future 
Combat Systems, a capability that not only defeats RPGs 
initially but can be upgraded, over time, to defeat a much 
larger threat.
    I look forward to your questions and the opportunity to 
clarify and address any concerns you may have.
    Mr. Abercrombie. Thank you.
    [The information referred to can be found in the Appendix 
beginning on page 87.]
    Mr. Abercrombie. I am going to ask Mr. Coyle to speak next 
because he has done us the great service of coming a long 
distance. I know what it like to commute 5,000 miles one way to 
work, Mr. Coyle. I understand you have come 2,500 miles to be 
here today, and you have to leave shortly, so I will ask you to 
speak next, and perhaps we will even move to questions a little 
quicker.

  STATEMENT OF DR. ROBERT L. BUHRKUHL, DIRECTOR, JOINT RAPID 
  ACQUISITION CELL, OFFICE OF THE UNDER SECRETARY OF DEFENSE 
     (ACQUISITION, TECHNOLOGY AND LOGISTICS); CAPT. JOSEPH 
  McGETTIGAN, COMMANDING OFFICER NAVAL SURFACE WARFARE DESIGN 
   CENTER; PHILIP E. COYLE, III, SENIOR ADVISOR, CENTER FOR 
  DEFENSE INFORMATION, FORMER DIRECTOR, OPERATIONAL TEST AND 
   DEVELOPMENT, OFFICE OF THE SECRETARY OF DEFENSE; AND RAY 
     DUBOIS, JR., SENIOR ADVISOR, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

               STATEMENT OF PHILIP E. COYLE, III

    Mr. Coyle. That would be fine, and I very much appreciate 
the courtesy, Mr. Chairman, and it was my pleasure to meet and 
work with a number of members of this committee and their staff 
when I was serving last year on the 2005 Base Realignment and 
Closure Commission (BRAC), and it is a pleasure to be here 
again, and I appreciate----
    Mr. Abercrombie. We all have our burdens to bear.
    Mr. Coyle. I appreciate the invitation. I have just a very 
short statement. It is just about a page, and I will not read 
even all of it.
    I am currently employed as a Senior Advisor to the 
nonprofit Center for Defense Information, which is a division 
of the World Security Institute here in Washington, D.C., and 
neither the World Security Institute nor the Center for Defense 
Information accept any funding from the Federal Government or 
from defense contractors.
    As you know, I served in the Pentagon from 1994 to 2001 as 
Assistant Secretary of Defense and Director of Operational Test 
and Evaluation (DOT&E), and in this capacity, I had OSD and 
OT&E oversight responsibility for over 200 major defense 
acquisition systems.
    In my current capacity at the Center for Defense 
Information, I am sometimes called upon to provide independent 
expertise to the media on various defense matters. I have over 
30 years of experience in tests and evaluation related to U.S. 
defense systems and equipment, and knowing this, NBC asked me 
to review DOD and Army documents that NBC had acquired. NBC 
also knew that, in the course of my 6 1/2-years at the 
Pentagon, I would probably be familiar with all sorts of 
briefing documents and correspondence, perhaps not unlike those 
that NBC had acquired.
    However, with respect to those documents, which by the way 
are on the NBC Web site, while I have, indeed, seen many 
Department of Defense (DOD) and service briefing documents and 
other related correspondence related to the development of U.S. 
military systems, I have never before seen documents which 
purported to threaten members of the DOD test and evaluation 
community or officials in OSD for doing their job as the NBC 
documents show. Also, I had never before seen documents that 
sought to delay or to avoid a proposed military system in the 
face of positive test and evaluation results.
    NBC aired four programs on the Trophy-Raytheon controversy, 
and I appeared briefly in two of those programs. On September 
6, 2006, with respect to the makeup of a technical review panel 
assembled to evaluate competing RPG defense systems, I said, 
quote, ``That sure doesn't look like an objective panel to me. 
It just doesn't pass the ho-ho test when you have that many 
people from one company (Raytheon) on the selection panel and 
then that company is chosen,'' and I still stand by that 
comment, and then earlier this month in another NBC program on 
the same controversy, I was asked why the U.S. Army would 
refuse to allow Trophy to be tested on an Army Stryker vehicle, 
forcing the Pentagon to borrow a Stryker from Israel and then 
fly it to Virginia at an extra cost to taxpayers of around 
$300,000, and I said on that program ``What this says to me is 
that the Army doesn't want to get results that would show that 
Trophy was the best system, and all that does is hurt the very 
soldiers that need these new types of protection.'' later, in 
that same recent program, I also said, ``The whole idea is to 
get new equipment that can really make a difference to U.S. 
soldiers and to Marines in Iraq, so I just don't understand the 
reluctance.''
    Mr. Chairman, I stand by those remarks also, and this 
concludes my prepared statement. I would be pleased to take any 
questions you might have.
    [The prepared statement of Mr. Coyle can be found in the 
Appendix on page 78.]
    Mr. Abercrombie. Before I do, I understand Mr. Johnson 
had--did you have questions you wanted to address to Mr. Coyle 
specifically?
    Mr. Johnson. Yes, I do, sir.
    Mr. Abercrombie. Why don't you go ahead then.
    Mr. Johnson. Thank you.
    Mr. Coyle, I have read your statement today, and I feel 
compelled to ask you some questions.
    This firm Center for Defense Information, which is a 
division of World Security Institute, how long have you been 
employed there, sir?
    Mr. Coyle. I have been employed there for six years.
    Mr. Johnson. And are you a principal in the firm?
    Mr. Coyle. No, I am not our principal in the firm. I am 
called a Senior Advisor to the President.
    Mr. Johnson. You are not a stockholder?
    Mr. Coyle. There is not any stockholder.
    Mr. Johnson. It is a nonprofit?
    Mr. Coyle. It is a nonprofit.
    Mr. Johnson. Okay.
    Mr. Coyle. It is a think tank like Brookings, which is 
next-door.
    Mr. Johnson. Were you one of the founders of the firm?
    Mr. Coyle. Not at all. The Center for Defense Information 
has existed for over 30 years.
    Mr. Johnson. I see, and that firm is pretty much a 
consultant, is it not, to the----
    Mr. Coyle. Well, it really not a firm; it is a think tank, 
and we do independent research on various national security 
matters.
    Mr. Johnson. How does it obtain its funding?
    Mr. Coyle. We depend on grants from various foundations--
the Ford Foundation, the Foundation, things like that--and from 
private donations from individual citizens.
    Mr. Johnson. Have you, yourself, ever been paid to be a 
consultant to any media outlet?
    Mr. Coyle. No, I have not.
    Mr. Johnson. How about the firm that you work for?
    Mr. Coyle. I do not believe so, but I do not know for sure, 
but I do not think so.
    Mr. Johnson. Was there any remuneration involved in 
connection with your services in evaluating these documents for 
NBC as you stated in your----
    Mr. Coyle. No, there was not. No, there was not.
    Mr. Johnson. So you did that purposely for gratis, if you 
will?
    Mr. Coyle. I did it as part of my responsibility for the 
Center for Defense Information.
    Mr. Johnson. And in connection with that review of these 
documents which you said are on the NBC Web site, you indicate 
that the documents purport to threaten members of the 
Department of Defense test and evaluation community?
    Mr. Coyle. Yes, sir.
    Mr. Johnson. Threaten them, how so?
    Mr. Coyle. What I am referring to, Representative Johnson, 
is what was revealed in the January 10th program where NBC 
reported that after Pentagon tests found Trophy 98 percent 
effective. An Army colonel called the Navy engineer overseeing 
the testing of that system, and according to accounts of the 
conversation obtained by NBC News, the Army colonel vowed to, 
quote, take down Trophy's key Pentagon supporter, and warned 
the Navy engineer to be careful also. That is what I am 
referring to.
    Mr. Johnson. Uh-huh. Can I get someone from the Army to 
comment on that? That is something in a document. It is an 
official document?
    Mr. Coyle. Yes. It is an official document that NBC has, 
yes.
    Mr. Johnson. Where did it come from?
    Mr. Coyle. I couldn't tell you.
    Mr. Johnson. You don't know of the veracity of the 
document?
    Mr. Coyle. Well, I have seen the document, and it looks 
believable to me. It is an account of this conversation. And I 
might add that that engineer stood his ground and stated that 
such a system would provide warfighters better protection than 
is currently available. But I don't recall at this moment who 
the e-mail was from and all of that.
    Mr. Johnson. Before I ask the other members of the panel 
for any comment that they might have on that specific issue, I 
do want to ask you whether or not you have been involved in the 
testing and evaluation of any APS system.
    Mr. Coyle. I have not.
    Mr. Johnson. So you are not here to vouch for the 
credibility, if you will, of any particular APS?
    Mr. Coyle. No, sir. I am not here to defend the Trophy 
system. I am not here to defend NBC. They can take care of 
themselves.
    Mr. Johnson. All right. Thank you. Anyone else?
    Mr. Abercrombie. Thank you, Mr. Johnson.
    I will ask General Sorenson if you can respond to 
Representative Johnson's inquiry with regard to that context of 
the question asked of Mr. Coyle.
    General Sorenson. I guess in that context I would say two 
things. First of all, I am not sure with respect to the 
document that Mr. Coyle is referring to who exactly sent it, 
nor do I understand exactly why it was sent or the context. I 
have no knowledge of this particular document. I can verify and 
attest to the fact that I didn't send it. So, you know, not 
seeing the document, I can't really comment on it.
    I guess the second thing I would like to comment on, 
though, is that while this testing was in some context said 
that the DOD testers had determined to be 98 percent effective, 
we need to clarify for the committee the types of testing we 
are talking about. This was clearly not operational tests. And 
I think, Mr. Coyle, being the previous director of DOT&E, would 
basically agree with me that this particular system, as it went 
through whatever testing it went through, was not suitable to 
be fielded today. It still is in the developmental stage, and 
these were interim results that essentially showed some 
positive capability of this system to be used to defeat RPGs, 
to which there is no argument to. But it was developmental 
testing, not operational testing for fielding.
    Mr. Abercrombie. Okay. Thank you.
    Mr. Coyle, what I indicated before about part of the 
difficulty here is getting questions to which an answer can be 
given in good faith, but because the question then didn't 
really cover all of the territory or all of the ground, that a 
different answer might have been given or a different 
evaluation might have taken place had there been another 
perspective.
    I always love the word ``document,'' by the way. It sounds 
so official and so wholesome that it covers everything, but 
what you are really talking about is a piece of paper which 
purports to have a conversation on it of some nature in some 
kind of context. But in that, then, the reference NBC, when 
they gave you the series of documents related to Active 
Protection Systems, they said they got it from Pentagon 
sources, and you gave the conclusion you did, given the 
question raised for you from those documents.
    Now, the Army documents that we looked at were on the NBC 
Web site so I didn't obtain this--Greg DuBois did not show up 
at my apartment late at night and brought a pizza and the 
documents. This was on the Web site and included a slide 
entitled ``Analysis of Alternatives.''
    [The information referred to can be found in the Appendix 
on page 83.]
    Mr. Abercrombie. So this is not a classified document. It 
is not--it is available to anybody who cares to see. In fact, I 
think the Army would be delighted if this was reprinted 
everywhere in the country.
    Did the staff get you a copy of the ``Analysis of 
Alternatives''?
    Mr. Coyle. They did, Mr. Chairman.
    Mr. Abercrombie. Okay. Now, I presume this wasn't shown to 
you along with the document you were asked to evaluate.
    Mr. Coyle. No, sir. That is not correct. I had seen this 
document, this slide before. It comes from an August 25, 2005 
briefing that was given by Army and Navy technical 
representatives, the purpose of which was to gain concurrence 
to integrate the Trophy APS system into Army equipment. So it 
came from a larger briefing.
    Mr. Abercrombie. Yes.
    Mr. Coyle. And I might add that the slide on the evaluation 
results in that briefing says that Trophy is the most 
technically mature system; that it is the only system that can 
provide near 360-degree active protection, something that 
General Sorenson has spoken to, and that it is recommending 
procuring and integrating one Trophy APS into increment zero of 
the so-called FSEP.
    In conclusion, this briefing recommends concurrence with 
the selection of the Trophy APS and approval to use an existing 
contract to do that procurement and integration.
    Mr. Abercrombie. When you look at the document, the slat 
designation has the highest rated score, does it not?
    Mr. Coyle. Yes, it does.
    Mr. Abercrombie. Now, General Sorenson, when you take a 
look at these various scores, each of these systems has 
something to recommend it depending on the use for which the 
system is going to be implemented, right? In other words, if 
you are involved in Baghdad in close quarters of crowded 
neighborhoods, it is different than being in the desert with 
hundreds of meters on either side of you with respect to the 
terrain you are traversing; is that correct? So when you have 
various evaluations as to what this protective system could do, 
it depends on what you are using it for with regard to what 
will be utilized in what particular vehicle. Am I getting too 
convoluted with this?
    General Sorenson. No. You are exactly on target. It depends 
upon what is the requirement. And the Army feels that it has 
defined that the requirement is for not only the current force 
but also the manned ground vehicles for the Future Combat 
System and is basically used, some of these criteria such as 
size, weight, power, et cetera, to determine whether or not and 
what the Army should go off and pursue. And based upon that, 
that was the type of evaluation that was done in the source 
selection. And as a result of it was the award of the contract 
to the Raytheon system.
    Mr. Abercrombie. Okay. That is established as our base 
then.
    Let me go very quickly to Dr. Buhrkuhl, and then, Captain 
McGettigan and then Mr. DuBois, and then we will get to the 
rest of the members.
    Would you like to go now?
    Mr. Saxton. If Mr. Coyle is going to stay, I would wait.
    Mr. Coyle. Well, I would like to get out of here in the 
next six or seven minutes.
    Mr. Abercrombie. Okay. I will go to--I beg your pardon. Mr. 
Saxton, and Mr. Wilson, if you want.
    Mr. Saxton. It is good to see you again. The last time I 
saw you was in a different forum, and everything worked out 
fine there. So thank you for that.
    It seems to me, Mr. Chairman, that there are four important 
issues here related to Trophy and the APS systems and whether 
they should have been employed and whether Trophy should have 
been the choice.
    The first issue is the threat posed by RPGs and a decision 
about the level of investment that we should have made against 
that threat, particularly considering other threats like IEDs.
    The second is the capability of the APS systems, Trophy or 
others, against the RPG threat in the field.
    The third is other systems. If there was a significant 
threat of RPGs, were other systems available that would have 
been as effective or perhaps more effective than the APS 
systems or Trophy?
    And, finally, could Trophy have been installed--if all of 
the answers to the above questions were in the affirmative, 
could Trophy have been installed on a variety of vehicles, 
including Humvees, Strykers, tanks, or Bradleys, without 
affecting the capability significantly of those vehicles?
    So if I may, Mr. Chairman, just start with the first.
    Did you consider, Mr. Coyle, the threat posed by RPGs as 
compared to other threats in the field?
    Mr. Coyle. With respect to this chart that shows the 
analysis of alternatives data, I dare say that if a slat armor 
were adequate, the Army would not be trying to develop Active 
Protection Systems. That is not to say that these protection 
systems are operationally ready today. That is not my point at 
all. But the whole reason that the Army is developing Active 
Protection Systems is because for the future threats, that they 
see slat armor is not adequate.
    Mr. Saxton. I agree with you that the future threats could 
include RPG threats, but in Iraq, at the time this decision was 
made, was the RPG the threat, or were there other threats, such 
as IEDs, which were much greater?
    Mr. Coyle. Yes, indeed. Yes, Representative Saxton. There 
were many other threats. And RPGs were just one of many.
    Mr. Saxton. And they were relatively minor as compared to 
the IED threat, for example?
    Mr. Coyle. Well, I don't know what the ``minor'' means. It 
is a--it is a danger to our troops.
    Mr. Saxton. Let me stop now and ask Major General Sorenson 
to respond to that question.
    In our consideration of whether or not to make an 
investment on protection against RPGs or IEDs, was there a 
difference in the threat, and if so, did that play a difference 
in the decision?
    General Sorenson. We have, I think in front of you, 
hopefully some of these pie charts.
    If you would refer to it, it says vehicle RPG attacks 2006 
calendar to date. You will see at the bottom that the total 
number of RPG attacks is seven percent. So it is in context of 
the other threats that we are trying to develop, and field 
capability to defeat is a small piece of a threat we are going 
after.
    Mr. Saxton. And what was the percent of IED?
    General Sorenson. Ninety-three percent. The rest of it was 
basically IEDs.
    Mr. Saxton. So at least most prudent people would say if we 
are getting 93 percent of the threat from IEDs, we might want 
to make most of our investment there.
    General Sorenson. Correct.
    Mr. Saxton. The second question, Mr. Coyle, the capability 
of the APS systems in the field against RPGs, do you have 
knowledge of the capabilities of the Trophy system in the 
field?
    Mr. Coyle. I have not seen the test results for the Trophy 
system or for the Raytheon system or other competing systems, 
and NBC didn't ask me about that.
    Mr. Saxton. Okay. Thank you. General Sorenson, would you 
comment on the timing issues?
    General Sorenson. With respect to putting the equipment on?
    Mr. Saxton. With respect to whether or not the APS system, 
Trophy, would be effective in the field against the RPG threat.
    General Sorenson. At the present time, the answer is no. 
Even the developer of this capability, which is in a foreign 
country right now, their particular country right now is 
looking at trying to develop this system, integrate it, and 
essentially deploy it almost another year and a half from now.
    Mr. Saxton. Thank you.
    Mr. Coyle, let me ask the third question. There are other 
protection systems, as we all know, against RPGs. Are you 
familiar with them?
    Mr. Coyle. To some extent, yes.
    Mr. Saxton. You mentioned slat armors, so obviously you are 
familiar with it and reactive armor and other types of 
protective systems that are already in place or, in the case of 
Stryker, being applied at the time.
    Mr. Coyle. Yes, sir.
    Mr. Saxton. So did you take any of that into consideration, 
or did NBC ask you about that?
    Mr. Coyle. NBC did not ask me about that. And as I said 
before, I have not seen the test results for these various APS 
systems.
    Mr. Saxton. Can you in a general way explain the 
capabilities that exist just in a short period of time?
    General Sorenson. Yes, sir.
    Mr. Abercrombie. Excuse me. Just before he answers, Jim, 
can you ask Mr. Coyle the last question, because I am afraid he 
is going to have to go. And then, General Sorenson, if you 
would keep notes on what--I think he had one more question. Mr. 
Coyle, I know you are under a real time constraint.
    Mr. Saxton. The last question is, could Trophy systems 
effectively be installed and deployed on the Humvee, on 
Strykers, on Bradleys, or on heavy tanks?
    Mr. Coyle. In the course of reviewing the documents that 
NBC obtained, I saw various Army documents and briefings, ones 
we have already alluded to that are on the Web site that 
purport that Trophy is being integrated on a variety of 
different vehicles of the sort that you mention. But I don't 
have any first-hand knowledge other than what is in those 
briefings.
    Mr. Saxton. Thank you very much.
    Mr. Abercrombie. Thank you, Mr. Coyle.
    Mr. Coyle. Mr. Chairman, I really appreciate the courtesy, 
and I would be happy to take any questions for the record.
    Mr. Abercrombie. I was going to ask you if it was okay if 
we could send some things on to you, if you would be kind 
enough to send something back on it. I would be very, very 
grateful.
    General, were you able to get Mr. Saxton's questions to Mr. 
Coyle, and then do you have a response or a perspective then in 
the context that Mr. Saxton asked?
    General Sorenson. Yes. I think with respect to the Trophy 
system, clearly at this point in time it is a rather heavy 
system. It is predominantly being employed and being designed 
right now for the combat systems, specifically in our case it 
would be for our manned ground vehicles that we are putting on 
Future Combat Systems. At some point in time we would hope to 
provide this capability to Humvees, but because of power, size, 
and weight constraints, that is not exactly feasible. And I 
think you will also find essentially where this system is--
again, it is foreign built and the type of capability they are 
putting on it is an armored system. They are not at this point 
in time designing it to be put on something other than an 
armored system.
    Mr. Saxton. The Israelis are putting it on a heavy tank?
    General Sorenson. That's correct.
    Mr. Saxton. And it weighs 1,700 pounds. And so unless it is 
modified significantly, I wouldn't think it would be practical 
to do Humvee or even Stryker. Stryker is supposed to go 60 
miles an hour or thereabouts, and it seems to me it would 
affect its capability and so----
    Mr. Abercrombie. That gets to the question, does it not, 
Jim, of context in and of itself; it might seem to be just the 
right thing, but once you put it in another context, it might 
not be the right thing. Is that a fair----
    General Sorenson. I would say that is fair and that is 
correct.
    Mr. Abercrombie. You can see why I value Mr. Saxton's 
mentorship over the years. He zeroes right in on the issues.
    I have driven Mr. Bishop out of the room on this. I am 
sorry.
    Mr. Saxton. The last point I wanted to make is that we, in 
terms of protecting against RPGs, have at least six other types 
of systems that are employed. And it would be nice in the 
future when we face a significant threat from RPGs to have a 
new, even more capable system, such as the ones we are talking 
about. But in terms of the investment that it would make, it 
was determined by the Army to make that investment against 
other threats, given all of the factors that I have talked 
about here in the last few minutes.
    Mr. Abercrombie. Thank you very much.
    Mr. Wilson, would you like to proceed, or should we go to 
the other members of the panel for their short commentary?
    Mr. Wilson. Mr. Chairman, I would like to hear from the 
panel and then certainly would like my chance to say something.
    Mr. Abercrombie. You will be first.
    Mr. Wilson. Thank you.
    Mr. Abercrombie. You are first in our hearts, you know 
that.
    Mr. Wilson. Thank you very much.
    Mr. Abercrombie. Dr. Buhrkuhl, I think I will go with you 
because you come before everybody else.

              STATEMENT OF DR. ROBERT L. BUHRKUHL

    Dr. Buhrkuhl. Distinguished members of the subcommittee, 
thank you for the opportunity to appear before your 
subcommittee to discuss the questions raised regarding the 
integration of the Israeli Active Protection System named 
Trophy onto the full spectrum effects platform, commonly called 
FSEP.
    As the director of the Department's Joint Rapid Acquisition 
Cell (JRAC), I am responsible for facilitating the Department's 
responses to the immediate warfighter needs submitted to the 
Department from the combatant commanders that are not 
improvised explosive defeat requirements.
    The Joint Rapid Acquisition Cell provides a single point of 
contact in the Department for facilitating solutions to these 
immediate warfighter needs. To address these urgent needs, we 
focus on near-term material solutions typically involving off-
the-shelf capabilities that can satisfy, to some degree, the 
urgent needs of the combatant commanders.
    On April 19, 2005, the United States Central Command's 
chief of staff submitted a joint urgent operational needs 
statement for a capability that included a suite of scalable 
nonlethal weapons, combined with a set of lethal weapons, 
mounted onto an existing military vehicle such as the Stryker 
infantry carrier vehicle. The suite of weapons would provide 
the warfighter with a full spectrum of components to conduct 
force protection missions, route reconnaissance, crowd control, 
raids, and point defense, all in an effort to save lives and 
reduce collateral damage.
    The Central Command's concept included a component for a 
fully automated Active Protection System to counter rocket-
propelled grenades and anti-tank missiles. This component 
subsystem was the Trophy Active Protection System. It was to be 
used on the Stryker vehicles in lieu of slat armor. As you 
already know, slat armor forms a metal cage around the vehicle 
that detonates the rocket-propelled grenade before it can 
penetrate the vehicle itself.
    On April 28, 2005, after evaluating the Central Command's 
request, the Joint Staff supported the need but stated that the 
proposed FSEP solution with all of its subsystems was 
unachievable in the near term, which is a requirement for us to 
take immediate action on an immediate warfighting need.
    Subsequently, however, the Office of Force Transformation 
(OFT), working with Army officials and Naval Surface Warfare 
Center engineers at Dahlgren, Virginia, planned a more thorough 
and accelerated schedule for integrating the subsystems onto 
the FSEP vehicle and presented their new proposal to the Joint 
Rapid Acquisition Cell on September 19, 2005. Based on the 
JRAC's recommendation, in January 2006, the Deputy Secretary of 
Defense approved the use of $31.3 million for the Army to 
proceed with Spiral 1 development of the FSEP.
    Mr. Abercrombie. Can you tell us what Spiral 1 development 
means? Again, we have an audience that doesn't necessarily 
understand all of the terminology.
    Dr. Buhrkuhl. The Office of Force Transformation of the 
Army brought along Spiral 0; that is the initial concept and 
basic research. What we tried to do in the Joint Rapid 
Acquisition Cell is facilitate meeting the immediate 
warfighting needs, so we provided the funds that bridged that 
gap between Spiral 0 to Spiral 1, with the Army designated as 
the program manager. So in Spiral 1, the idea is to start 
integrating and testing the system that makes up the full 
spectrum supply form.
    Mr. Abercrombie. Could you summarize in the next 90 
seconds?
    Dr. Buhrkuhl. The whole presentation?
    Mr. Abercrombie. Yes, sir.
    Dr. Buhrkuhl. Basically I stand by what I told you last 
fall. We looked at the different needs of the warfighter. We 
are relying on independent test evaluation. It didn't appear to 
us that the Trophy was ready to be put onto the vehicle and 
deployed. We had an urgent material release date of June 2007 
to get three Strykers in theater. We are going to make that 
date, but my decision, based on an Army recommendation, was to 
use slat armor instead. But what I did to base that--make that 
decision, I went to the Central Command and asked, what is your 
preference. We can give you the Full Spectrum Effects Platform 
(FSEP) now or very soon at, say, the 95 percent level; or do 
you want to wait for the Trophy or some other Active Protection 
System? And they said that they preferred to get the full 
spectrum effects platform without the APS at that time, and we 
could use it and put it on a later Spiral.
    Mr. Abercrombie. So you are the person that has to answer 
up to the person--to the fighter in the field; is that right?
    Dr. Buhrkuhl. Yes, sir.
    [The prepared statement of Dr. Buhrkuhl can be found in the 
Appendix on page 70.]
    Mr. Abercrombie. I am going to ask you to go next, and Mr. 
DuBois is going to bat clean-up.
    Captain McGettigan. Thank you very much.
    Mr. Abercrombie. He likes that idea, by the way.

              STATEMENT OF CAPT. JOSEPH MCGETTIGAN

    Captain McGettigan. At Naval Service Center Warfare 
Division, we are a center of excellence for integrating combat 
systems, and that is why the Office of Force Transformation 
came to us and asked us to integrate many systems onto this 
Stryker vehicle called the Full Spectrum Effects platform. We 
were evaluating each of those subsystems independently. One of 
those was an Active Protection System. We didn't conduct a 
paper study or an engineering study of all of the available 
systems. The one that we thought was technically most mature 
and that was in conjunction with the Army was the Trophy 
system. So we procured a Trophy system and we ran it through 
tests to verify what the technical capabilities of that system 
were. And out of 38 tests that we ran, it successfully engaged 
35 times, which we computed to approximately 92 percent 
probability of success for that system.
    And we did not go through and evaluate the other systems in 
the same manner. We did not go beyond that. We had that one 
requirement to integrate that system on board that Stryker 
vehicle, and that was the testing that we did. That was not an 
operational test. It was specifically something that was just 
to verify the technical capabilities of that system as it 
existed at that point in time.
    Mr. Abercrombie. Is that it?
    Captain McGettigan. Yes, sir.
    Mr. Abercrombie. Thank you.
    [The information referred to can be found in the Appendix 
beginning on page 87.]
    Mr. Abercrombie. This has been a long day for you, but you 
have been able to observe everything virtually from the 
beginning, and I would value your assessment at this point.

                  STATEMENT OF RAY DUBOIS, JR.

    Mr. DuBois. Mr. Chairman, Mr. Saxton, Mr. Wilson, it is an 
honor to be here again. It is the first time I have appeared 
before this committee since I resigned from the Defense 
Department, now almost 10-plus months ago.
    Anytime that any of us can appear to discuss the safety and 
security of our soldiers is an important thing to do, and I 
would do it at anytime you asked me.
    I think it is important to go immediately to the NBC 
newscast of last week.
    I was asked, and let me say in response to Mr. Johnson's 
question, that as a senior advisor but also as an independent 
consultant, I have accepted government funding and will 
continue to accept government funding in my consulting 
capacity, as well as defense industry funds, on areas in public 
policy and industrial policy of interest to me, but I did not 
accept nor did NBC offer any compensation for my involvement 
with that news program.
    Now why did I get involved? Lisa Myers called me up and 
said, ``I have in my hand an e-mail that purports to be the 
minutes of a meeting that you chaired on October 26, 2005 in 
your capacity as Under Secretary.''
    I said, ``Oh, really. Why don't you read it to me?'' which 
she proceeded to do. And she wanted to know straight up, was 
the reference to me in the e-mail accurate and did it 
characterize my conclusions and recommendations at the end of 
that meeting which was focused on FSEP and Trophy. Was it 
characterized accurately? And I said yes, it was.
    So I agreed to sit down with her for 50-plus minutes on 
tape. She interviewed me, and I took the opportunity to discuss 
with her the various aspects of Army testing and evaluation, 
the FSEP program, Strykers, Active Protection Systems, the 
threat, the Office of Force Transformation, all of the issues 
that were bound into this discussion, in an effort to help her 
understand where she was going and perhaps indicate to her that 
it was not an entirely accurate portrayal on her part, at least 
in the past.
    Out of that 50 or 45 minutes, 4 or 5 seconds appeared 
Wednesday night on the 10th, and I said, and I quote, ``It 
appeared that Trophy was mature enough. It needed to be looked 
at seriously and not ignored,'' end quote. Now that was in the 
context of my discussion with her that all technologies that 
are going to affect the safety and security of soldiers in the 
field, the Army is interested in. But in my year-plus as acting 
Under Secretary, I will tell you that a week didn't go by when 
there wasn't a communication of a Member of Congress, a 
communication from industry, a communication from another 
service, ``Here was an aspect of technology that ought to be 
considered.''
    In the case of Trophy, it is important to note that the 
Secretary of the Army--and I was involved in this decision in 
the summer of 2005--had looked at the threat, and this is the 
key aspect that Mr. Saxton was getting at. The types and 
kinetic nature of the threat is what we have to pay attention 
to. If the 105-millimeter shell from a tank were to hit a 
Stryker with slat or bar armor and reactive armor, it wouldn't 
make a difference, that type of protection. We were looking at 
RPGs, we were looking at IEDs, as has been discussed. The 
Trophy had been lab tested, had been developmentally tested, 
had been tested, as I believe the captain said, under 
controlled conditions. Even the Israelis who developed the 
system did not apply that system to the tanks when they invaded 
Lebanon.
    Another issue that has got to be understood in this context 
is the integration issue. We talked about the weight, 1,700 
pounds. You can't just bolt a nifty technology, mature though 
it might be in a developmental testing context, on a vehicle, 
figure out how to wire it in so that it works, and at the same 
time know that if it works the way its developer says it will 
work, what happens to the dismounted infantry that is on either 
side of the vehicle, should it go off.
    The Army--and I will just stop with this--my experience 
with the Army, and it goes back to when I was an Army enlisted 
man in Vietnam in 1968 and 1969, has always taken very 
seriously what conditions, what technologies, can we export to 
the field that are properly tested--as General Sorenson and 
General Speakes spoke to in the previous panel--which will 
yield the result that we want. So I am confident that on the 
one hand it is true I said, this system, this technology, is 
worthy of further testing, and if it proves out--in fact, we 
had planned to test it at Yuma Proving Ground--we should move 
it to CENTCOM. But as CENTCOM said, we would like the FSEP 
without the Trophy right now. The best testing is always in 
realistic combat situations. And I am convinced--and the United 
States Army maintains constant communication with the Israeli 
Army--we will find out, the Army will find out if in point in 
fact this system can be used and integrated at this time or any 
time going forward.
    So thank you again, Mr. Chairman.
    Mr. Abercrombie. Thank you for that perspective. I am very 
appreciative.
    Mr. Wilson, thank you for exercising great patience and 
forbearance to this point.
    Mr. Wilson. Thank you, Mr. Chairman. And General Sorenson, 
Dr. Buhrkuhl, Captain McGettigan, Secretary DuBois, thank you 
for being here today.
    I am particularly interested in the good work that I 
believe that you all have done in regard to promoting new 
technology. We are facing a different enemy and we need to be 
proactive, and I sincerely believe that in your positions, the 
military in general has been very proactive in addressing an 
enemy who changes what they are doing every day in a--from my 
perspective--very evil way of using women and children as 
shields.
    As I hear this evening, the presentation has been made, I 
want to thank the Chairman, Mr. Abercrombie. I want to thank 
the Ranking Member, Mr. Saxton, and also Congressman Johnson.
    The issue of active protective systems has really been well 
covered, and I think very professionally done. And so my 
interest is indeed promoting new technology and for people to 
be able to bring to the attention of the military what can be 
done. The perspective I have as a Member of Congress, I am very 
grateful, but I have a personal interest. I have three sons in 
the Army National Guard, one on Active Duty, Navy. And I want 
the best for them. And it is really ironic in the handout 
today, I can tell you firsthand how the new technology that you 
promoted is so important. The handout has a soldier here, 1999, 
indeed, the equipment of these soldiers. In 1999, I was 
preparing for--I was in the Army National Guard myself--for a 
training exercise at the National Training Center at Fort 
Irwin, California, and this is the equipment we had. And I have 
frequently pointed out, and I didn't know this diagram existed, 
Mr. Chairman, but I frequently pointed out that the equipment 
that I have--and I mean this in a very positive way--is now in 
museums because of the advances of technology and the soldier 
of 2006.
    The equipment, indeed, that our young servicemen and women 
now have today is multiple generations, not a few, from what we 
had just seven years ago. And the reason I think a lot of this 
has come about is because as Secretary DuBois has pointed out, 
Members of Congress contact all of you virtually on a weekly 
basis: What recommendations do you have to those of us in 
Congress, to the American citizens; how can we bring to your 
attention new technology? If any or all of you would like to 
answer that, what can we do to expedite on the latest 
technology or suggestions on how to protect our service 
members.
    Mr. Abercrombie. Before you answer, one way I would suggest 
we shouldn't do is have NBC accuse people of not being prepared 
to extend and utilize new technologies.
    General Sorenson. Well, that is true. But with respect to 
what you are asking here, clearly in all cases within the Army, 
the art at the Research and Development Command Headquarters 
throughout all of our program executive officers' locations, we 
have set up Web sites that basically we would call, in this 
case, an unsolicited proposal of new technology. They can 
basically come up, get a point of contact, contact that person, 
and basically say, ``I have got something I want you to take a 
look at.''
    I will tell you that on a daily basis, I respond to a 
number of letters from all of you with respect to I have got 
this from my constituents, ``What do you think I need to do 
with this?'' and my response back to you has always been 
clearly, ``This is what we currently deploy,'' and oh, by the 
way, if you are a particular constituent and want to pursue 
this, this is the direct point of contact he can go to. Here is 
the Web site, here is the phone number to try to make sure we 
can take advantage of that. And clearly all cards and letters 
that we get we take advantage of.
    Mr. Wilson. And if that Web site can be provided to us, 
that would be helpful.
    General Sorenson. We can make that available, yes.
    Dr. Buhrkuhl. As far as the Joint Rapid Acquisition Cell, 
the big basis for our whole success has been the good ideas 
from the warfighters in the field, because we actually take 
their suggestions. These young men and women are so savvy when 
it comes to computers, and they come up with good 
recommendations on ways for us to field the urgent needs and 
that is one way we do that.
    On a more formal basis, of course, we have our Technology 
Office, Defense Advanced Research Projects Agency (DARPA), and 
our foreign comparative test. In fact, on this very subject, I 
should mention that we are going through our Technology Office 
and test one APS Trophy and one auto-loader, like in the 
August-December time frame, so we are not forgetting about that 
even though our initial decision, for at least the FSEP, was to 
use slat armor. But we take all kinds of suggestions. We get a 
lot coming into the Joint Rapid Acquisition Cell because of our 
reputation. But if it is not ours, we get it to the right 
organization like the Joint IED Organization.
    Mr. Abercrombie. Anything else?
    Mr. Wilson. I just thank all of you, and again, every time 
I think about being in the Mohave Desert in this particular 
battle dress uniform, and my four sons now are in digitally 
enhanced uniforms that make a lot better sense. Thank you very 
much.
    Mr. DuBois. I would like to ask a question, if I might, of 
one of our panel members which may be instructive.
    Mr. Abercrombie. We are all friends here.
    Mr. DuBois. General Sorenson, since September 2005 with the 
usage of slat or bar or reactive armor on the full major combat 
ground systems, the M-113, the Stryker, the Bradley, have we 
had any deaths of soldiers on those vehicles?
    General Sorenson. Mr. DuBois, thank you for asking the 
question. Quite frankly, most--when I testified here in 
September, the answer was zero.
    Most recently, we did suffer an attack where a soldier was 
killed. However, this soldier was not killed because of a lack 
of armor. Unfortunately, this particular soldier, who was one 
of the ones that was on the particular TV station, excuse me, 
the TV broadcast on MSNBC, happened to be in the gunner's 
position, so he was exposed. And it wasn't exactly from the 
standpoint of almost, say, a rifle shot, more so than anything 
where he was inside of the vehicle. The vehicle was attacked 
with an RPG, and the vehicle was not able to withstand that 
particular attack. So that was the one case.
    And the other case, the soldier was in a Humvee, and as we 
have already talked about, this particular system is not ready 
at this point in time to be anywhere close to being put on nor 
deployed nor installed on some lighter-type vehicle. It is 
strictly right now being looked at, the combat system.
    So again, I testified in September the answer was zero. We 
have had over 1,300 attacks. And to date, we have only suffered 
one casualty on our combat systems.
    Mr. Abercrombie. Thank you.
    Mr. Johnson, do you have another question?
    Mr. Johnson. No, sir.
    Mr. Abercrombie. How about you, Mr. Saxton?
    Mr. Saxton. No. I just have one final comment on behalf of 
the committee.
    Our goal is to make sure that every protective system that 
is feasible to be employed is employed. And I can't remember 
exactly what year it was, but I would--I am going to guess it 
is 2004. I actually led a congressional delegation to Israel, 
seeking help from people who had faced IED threats for a lot 
longer than we have, as to how and what systems we might be 
overlooking. And we got some ideas and passed them along to 
DOD, and I am sure they were all considered.
    And so whether it is an Israeli system or an American-built 
system or the system that is originated and designed and tested 
and developed someplace else in the world, it was my--and it 
was and is my desire and objective as chairman of the 
Terrorism, Unconvential Threats Subcommittee, which has 
responsibility here for force protection, to explore every 
avenue that we could. And wherever our technology is mature and 
where it is feasible to be deployed in the protection of 
American troops, those are my objectives.
    Mr. Abercrombie. Thank you very much.
    Gentlemen, thank you. Again, I have used the word 
``patience'' a good deal this afternoon, but I mean it 
sincerely. This is the only opportunity that we have 
institutionally to be able to get any message out to the public 
that is comprehensive and inclusive of the facts and offers, 
hopefully by the end of it, an opportunity for a conclusion to 
be reached by free people in a free society.
    I speak for all members of the committee, the subcommittee 
and the committee, and for Members of the Congress in thanking 
you for your service, for your devotion and dedication and 
professionalism. I can assure you that everything that has been 
put forward today will be taken into account by us as we move 
forward with our recommendations. And, again, these 
recommendations will be put forward on what we believe the 
strategic interests of the United States are and how we can 
best serve the goals and mission of the Department of Defense 
in terms of our responsibilities on this committee.
    There may be some other questions. I think we have covered 
pretty much everything I was interested in in both the 
classified session and in this session. But should there be 
other questions or observations that come as a result of this 
hearing, if you would all be so kind as to indicate whether you 
would be willing to receive them and respond. I can assure you 
that close attention will be paid to them. They will not 
disappear into a drawer somewhere. We take our responsibility 
seriously, and we take your participation seriously, and we 
thank you yet once again.
    Mr. Saxton. I am sorry, I forgot. Mr. McKeon, who had to 
leave, has five questions he wants to submit for the record.
    Mr. Abercrombie. I am not sure who they will go to but we 
will do that.
    [The information referred to can be found in the Appendix 
beginning on page 95.]
    Mr. Abercrombie. And with that, I would like to take my 
father's gavel, and I wish he could be here to see me do it, 
and bring this hearing to an end.
    [Whereupon, at 5 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                            January 18, 2007

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 18, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 37306.001
    
    [GRAPHIC] [TIFF OMITTED] 37306.002
    
    [GRAPHIC] [TIFF OMITTED] 37306.003
    
    [GRAPHIC] [TIFF OMITTED] 37306.004
    
    [GRAPHIC] [TIFF OMITTED] 37306.005
    
    [GRAPHIC] [TIFF OMITTED] 37306.006
    
    [GRAPHIC] [TIFF OMITTED] 37306.007
    
    [GRAPHIC] [TIFF OMITTED] 37306.008
    
    [GRAPHIC] [TIFF OMITTED] 37306.009
    
    [GRAPHIC] [TIFF OMITTED] 37306.010
    
    [GRAPHIC] [TIFF OMITTED] 37306.011
    
    [GRAPHIC] [TIFF OMITTED] 37306.012
    
    [GRAPHIC] [TIFF OMITTED] 37306.013
    
    [GRAPHIC] [TIFF OMITTED] 37306.014
    
    [GRAPHIC] [TIFF OMITTED] 37306.015
    
    [GRAPHIC] [TIFF OMITTED] 37306.016
    
    [GRAPHIC] [TIFF OMITTED] 37306.017
    
    [GRAPHIC] [TIFF OMITTED] 37306.018
    
    [GRAPHIC] [TIFF OMITTED] 37306.019
    
    [GRAPHIC] [TIFF OMITTED] 37306.020
    
    [GRAPHIC] [TIFF OMITTED] 37306.021
    
    [GRAPHIC] [TIFF OMITTED] 37306.022
    
    [GRAPHIC] [TIFF OMITTED] 37306.023
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 18, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 37306.024
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                            January 18, 2007

=======================================================================

      
                 QUESTIONS SUBMITTED BY MR. ABERCROMBIE

    Mr. Abercrombie. Will the increase of five additional brigade 
combat teams impact the current theater requirements for vehicles and 
vehicle armor?
    General Speakes and General Sorenson. Yes. The increase in deployed 
forces will increase the Total Theater requirement for vehicles and 
vehicle Armor. Anticipating the increased theater requirements, the 
Army validated an initial surge requirement of Up-Armored HMMWVs, 
Fragmentation Kits, Objective Gunner Protection Kits and other Safety 
Enhancements to support soldiers operating in light tactical vehicles. 
At the same time, the Army validated an initial surge requirement for 
Add on Armor kits, Gunner Restraints, Generation 3 Applique and other 
safety enhancements for the medium and heavy tactical wheeled vehicle 
fleets. These actions were taken with the knowledge that Theater was 
working to determine the final numeric requirement but, in the interim, 
the Army could begin producing additional vehicles and armor to 
``jumpstart'' getting to these new requirements.
    Mr. Abercrombie. What quantity requirement was stated in the MRAP 
joint urgent operational needs statement? Has the quantity been 
validated? Will it be validated?
    General Speakes and General Sorenson. The total JUONS requirement 
is 1,185 and includes a requirement for 335 MRAP vehicles for the Army. 
On January 18, 2007, however, the Army Requirements and Resourcing 
Board (AR2B) validated the Operational Needs Statement (ONS) 07-1115 
for 2,500 additional MRAP vehicles. The Army intends to re-evaluate the 
MRAP requirements and procurement objectives after the completion of 
testing and evaluation of MRAP vehicles.
    Mr. Abercrombie. How do you plan to resource the Army's MRAP 
requirement? When do you expect to receive these funds?
    General Speakes and General Sorenson. The current Army MRAP 
requirement of up to 2,500 vehicles is based on recent Joint Urgent 
Operational Needs Statements and an Army Operational Needs Statement. 
The MRAP is a Theater-unique requirement that fills a specific 
capability niche by providing our Warfighters with an increased force 
protection capability now through Commercial Off-The-Shelf (COTS) 
procurements. The program is currently managed as an Acquisition 
Category II (ACAT II) with resourcing dependent upon Supplemental 
funding, but given the Joint quantities and cost projected for the MRAP 
it is likely to become an ACAT ID program of record with resourcing 
required in the Base Budget.
    Current Army funding for MRAP consists of initial start-up funding 
of $90 million (M) as a cash flow from the High Mobility Multi-purpose 
Wheeled Vehicle (HMMWV) program until receipt of the $520 million 
requested in the Fiscal Year 2007 Main Supplemental. Upon receipt of 
the Fiscal Year 2007 Main Supplemental, the Army intends to pay back 
the $90 million reprogrammed from the HMMWV program, with the remainder 
of the $430 million going to MRAP. To procure all 2,500 MRAP vehicles 
will require an additional $2.249 billion, which is currently unfunded.
    Mr. Abercrombie. What do you see as the biggest challenge in 
quickly fielding the MRAP vehicle?
    General Speakes and General Sorenson. The two biggest challenges 
that we face in quickly fielding the MRAP vehicle are the timely 
receipt of funding and potential designation of the MRAP program as a 
major defense acquisition program (MDAP). First, the Army requires 
$2.796 billion to procure, integrate, field, and sustain 2,500 MRAP 
vehicles. The Army has requested $520 million in the FY07 Main 
Supplemental and requires an additional $2.249 billion to procure the 
2,500 MRAP vehicles. Second, due to the size of the joint requirements 
for MRAP vehicles, MRAP program may soon be designated as an 
Acquisition Category (ACAT) 1D, MDAP. The MDAP designation may result 
in additional procurement, testing and evaluation, and fielding 
schedule required by statutory and regulatory requirements. This in 
turn may result in extended procurement and fielding schedules.
    Mr. Abercrombie. The Marine Corps is procuring a new outer tactical 
vest that provides better weight distribution as well as providing a 
quick release function for easy access in emergency medical situations. 
Is the Army going to procure the same vest? If not, why?
    General Speakes and General Sorenson. The Army does not intend to 
procure the Marine Corps Outer Tactical Vest (MTV). The USMC MTV is 
essentially a reconfiguration of the Cordura carrier for the Outer 
Tactical Vest. The MTV reuses the existing Interceptor Body Armor (IBA) 
soft Kevlar inserts and hard Enhanced Small Arms Protective Inserts 
(ESAPI) plates and provides no additional ballistic protection over the 
Army's current body armor. Although the USMC and US Army requirements 
for body armor load carriage, ballistic protection, emergency cut away, 
weight distribution, and medical access are similar; the Army is 
interested in accommodating these features at reduced weight to 
minimize the increasing heat, weight, and agility penalties associated 
with body armor.
    Mr. Abercrombie. What is the status of the body armor industrial 
base? How many vendors are you currently using to produce vests and 
plates? Do you feel this is adequate and do you plan to expand the 
existing industrial base?
    General Speakes and General Sorenson. The body armor industrial 
base has consistently met Army requirements for body armor, to include 
surge requirements. Currently, the Army has 6 vendors under contract to 
produce Enhanced Small Arms Protective Inserts (ESAPI) and 1 vendor 
that produces the Outer Tactical Vest (OTV). There is no plan to 
increase the body armor industrial base, since industry is meeting 
current and projected Army requirements.
    Mr. Abercrombie. Are there any material constraints that would be 
generated by a sudden surge in requirements?
    General Speakes and General Sorenson. There are no material 
constraints.
    Mr. Abercrombie. Have you evaluated Pinnacle Dragonskin body armor? 
How does it compare to the existing body armor?
    General Speakes and General Sorenson. Yes, the Army evaluated 
Pinnacle Dragonskin body armor. The test results showed that Dragonskin 
did not meet the ballistic requirements to protect Soldiers in combat.
    Mr. Abercrombie. How often do you test and evaluate new body armor 
solutions?
    General Speakes and General Sorenson. The Army continuously 
evaluates new body armor solutions. In March 2006 the Army hosted an 
Industry Day for vendors to present new concepts for the Next 
Generation Body Armor. In August 2006, six vendors from Industry Day 
presentations were chosen to participate in a Soldier Protection 
Demonstration, hosted by the United States Army Infantry Center. 
Concepts from this Soldier Protection Demonstration will be used in a 
re-design of the Outer Tactical Vest to provide a quick release and 
other enhancements. The next Soldier Protection Demonstration is 
scheduled in May 2007 to continue to evaluate individual Soldier 
protection items.
    Mr. Abercrombie. With respect to the Army's Advanced Combat Helmet 
(ACH) internal pad suspension system. How many vendors are presently 
qualified to provide kits? How many vendors are currently under 
contract by the National Institute of the Blind (NIB) to provide pad 
kits?
    General Speakes and General Sorenson. Currently, one vendor meets 
the Army's new ACH blunt force trauma pad specification.
    Mr. Abercrombie. What has feedback been from theater regarding the 
particular pad kits currently being fielded as part of the ACH?
    General Speakes and General Sorenson. Soldier feedback from Theater 
is positive regarding the ACH pad system. The Army has been fielding 
the pad system with the ACH since 2002.
    Mr. Abercrombie. Did the Army change the performance specification 
for ACH non-ballistic impact protection?
    General Speakes and General Sorenson. Yes, the Army changed the 
performance specification for ACH non-ballistic impact protection. In 
June 2006 the House Armed Services Committee directed OSD to evaluate 
pad systems for the Army ACH and Marine Corps Light Weight Helmet 
(LWH). The results of the testing showed that improved non-ballistic 
impact protection can be provided with a new helmet pad specification. 
The Army is currently producing and fielding the new helmet pad 
specification to Soldiers in Theater.
    Mr. Abercrombie. How are vehicle armor protection levels classified 
in theater? By installation or performance? Does the Army plan to 
change or modify current vehicle armor protection definitions/
classifications? What's the status of this initiative?
    General Speakes and General Sorenson. Current armor protection 
levels are classified by location of installation; however, current 
efforts make this obsolete. Kits previously identified as Level II are 
not being produced and installed during production, but installed in 
Theater like the Family of Medium Tactical Vehicles Low Signature 
Armored Cabs. The Joint staff is sponsoring an effort to re-look 
current classifications and determine armor classification for the 
future.
    Mr. Abercrombie. Is the industrial base posed to meet any new 
additional vehicle armor requirements such as armor kits for trucks? 
Presently all truck armor kit production lines are closed.
    General Speakes and General Sorenson. The U.S. Army has been 
meeting the Theater commander's requirements and we have provided over 
14,000 Up-Armored HMMWVs and 23,000 Add-on-Armor (AoA) kits in support 
of the Global War on Terror (GWOT) and we are postured to support 
current requirements. The U.S. Army's heavy and medium armor kit 
production requirements were met in September 2005. However, many of 
the lines supporting heavy and medium kit production have been 
completely shut down and only spare parts are in production. The U.S. 
Army is currently working with original equipment manufacturers to 
support emerging requirements.
    Mr. Abercrombie. If more armor kits are produced for the medium to 
heavier trucks, will these kits be upgraded based on lessons learned 
and/or based on recent threat assessment? Meaning is there a plan to 
apply lED Fragmentation Kits similar to those being installed on the 
Up-Armor Humvee to the medium and heavy truck fleets?
    General Speakes and General Sorenson. Yes. Medium and heavy trucks 
will be upgraded to a ``Frag Kit #5--like'' level of protection by 
applying an opaque armor applique.
    Mr. Abercrombie. Why not provide interim armored doors (frag kit 
#5) for all up-armored Humvees including the M1114 and M1151?
    General Speakes and General Sorenson. The purpose of the interim 
kit for the M1114 was to provide an ``objective like'' capability and 
act as bridge until the Objective kit was designed, tested, produced, 
and fielded. The U.S. Army produced over 6,000 interim kits for the 
M1114. The M1114 Objective Frag Kit #5 retrofit kit requirement is 
greater than 13,000 kits while the M1151 Objective Frag Kit #5 retrofit 
kit requirement is less than 3,000 kits (vehicles produced and fielded 
prior to Frag Kit #5). There are no plans for an interim Frag Kit #5 
for the M1151 for the following reasons: (1) the M1151 Objective Frag 
Kit #5 retrofit kit production is currently on schedule and will be 
completed in April 2007; (2) the M1151 Objective Frag Kit #5 production 
capacity has exceeded the initial installation capacity for the 
vehicles in Theater; (3) unlike the M1114, the M1151 vehicles in 
production and are produced with Frag Kit #5 and then shipped to 
Theater; and (4) in addition, M1151 retrofit kits are produced and 
shipped to Theater to be installed on the vehicles fielded without the 
Objective kit. This simultaneous production of vehicles with Frag Kit 
#5 and the retrofit kits is an enormous advantage over the M1114, which 
was almost 100% retrofit kits.
    Mr. Abercrombie. How many vendors are producing frag kit #5 and do 
we own the technology rights for these kits? Could we outsource or use 
the depots and arsenals to ramp up production?
    General Speakes and General Sorenson. Two vendors produce Frag Kit 
#5 (AM General produces M1151 Frag Kit #5 and Armor Holdings produces 
the M1114 Frag Kit #5). The government does not own the technical data 
package. The U.S. Army's new vehicle productions for M1151 with Frag 
Kit #5 are being met without outsourcing to depots or arsenals.
    Mr. Abercrombie. How many installation facilities will be used for 
frag kit #5?
    General Speakes and General Sorenson. There are 18 installation 
facilities in the Theater that are used to install Frag Kit #5 (two 
sites in Kuwait, 15 sites in Iraq, and one site in Afghanistan). 
Additionally, AM General installs Frag Kit #5 on new M1151 vehicle 
production at its facility.
    Mr. Abercrombie. In what type roles and missions does the Army 
currently use the Cougar or Joint LOD Rapid Response Vehicle (JERRV)? 
Has the Army considered using this vehicle in different capacities?
    General Speakes and General Sorenson. Cougar is the Original 
Equipment Manufacturers (OEM) model name for a class of vehicle. The 
Joint Explosive Ordnance Disposal Rapid Response Vehicle (JERRV) is the 
Government's nomenclature for the vehicle, which also describes its 
intended mission. The Cougar/JERRVs that have been purchased and 
deployed within the Army units are used by Explosive Ordnance Disposal 
(EOD) teams to provide armored protection for the crew and their 
equipment while they are performing EOD operations.
    Other configurations of the Cougar have been and are being 
considered and evaluated by the Army for potential use in other than 
EOD operations. Additionally, the Cougar is a candidate for the Army in 
the Mine Resistant Ambush Protection (MRAP) program.
    The Army anticipates that in Fiscal Year (FY) 2007, the Army will 
be initiating a Program of Record for the Medium Mine Protected Vehicle 
(MMPV). The MMPV Capabilities Production Document (CPD) outlines two 
missions for this vehicle. One is the EOD mission and the other is for 
a command and control and security vehicle for the Engineer Clearance 
Companies. This effort will be competed on a full and open competitive 
basis and we anticipate that Cougar will be proposed as a potential 
candidate vehicle.
    Mr. Abercrombie. Is the Army pursuing an armor upgrade program for 
underbody protection for the Up-Armor Humvee?
    General Speakes and General Sorenson. The U.S. Army developed and 
evaluated a ``V-shaped'' integrated underbody solution for upgrading 
the UAH against underbody threats. This solution combined Frag Kit #3 
and Frag Kit #4 elements. Test results are classified, but the test 
confirmed that V-shape underbody solution will not provide sufficient 
underbody upgrade against Theater threats. Additionally, the Tank-
Automotive Research, Development, and Engineering Command (TARDEC) has 
been directed by the Vice Chief of Staff, Army (VCSA) to determine if 
the M1114 UAH could be improved in terms of vehicle performance 
(including suspension system), protection (underbody) and/or payload. 
TARDEC intends to engage industry experts with demonstrated skill in 
innovative design, advanced automotive engineering, prototyping and 
manufacturing expertise in tactical vehicles. These experts will work 
with TARDEC to develop solutions that can rapidly improve any 
combination of protection, payload, or performance aspects of the UAH.
    Mr. Abercrombie. I understand the Army's intention is to basically 
replace all Humvees that have an armor survivability kit with an Up-
Armor Humvee. What are you planning to do with these now excess Humvees 
with armor survivability kits?
    General Speakes and General Sorenson. All Level II armored HMMWVs 
are being retrograded to the Continental United States for reset or 
recapitalization and redistribution to fill current Army shortages. The 
oldest models are being upgraded to increase capability through the 
recapitalization program, while the newer models are being reset to 
``zero hours-zero miles'' standards. These vehicles will continue to be 
used in the force for the next 20-30 years.
    Mr. Abercrombie. Are there any contract disputes regarding the Up-
Armor Humvee (UAH)? Is this impacting production?
    General Speakes and General Sorenson. There are no contract 
disputes involving U.S. Army's UAH efforts.
    Mr. Abercrombie. Dr. Buhrkuhl, is there an existing Iraq theater 
validated requirement of any type for an active protection system? If 
so, what is the disposition of satisfying the requirement--what APS 
development and testing is on-going other than within the Future Combat 
Systems program to satisfy the requirement?
    Dr. Buhrkuhl. Central Command (CENTCOM) submitted a Joint Urgent 
Operational Need (JUON) that requested a variety of non-lethal 
capabilities. On May 16, 2006, CENTCOM accepted the JRAC's 
recommendation to move forward with the planned deployment of the Full 
Spectrum Effects Platform (FSEP) with its current lethal and non-lethal 
capabilities. They agreed that the Active Protection capability could 
be integrated as it became mature in a later spiral of FSEP 
development, if it proved successful. SLAT armor would be used to 
protect these initial vehicles against rocket-propelled grenades.
    Since 2003, DARPA and the Army have been working on systems that 
could be used on lighter vehicles. The objectives were:

        1)  No collateral damage aside from that caused by the threat 
        itself;

        2)   Residual penetration which could be handled by the light 
        armor appliques used for tactical vehicles in service today;

        3)  Light weight; and

        4)  Low cost.

    These systems and components are under test today and promise 
capability against RPGs and even heavy Anti-Tank Guided Missiles 
(ATGMs). They do not have a growth path to be able to counter standoff 
kinetic weapons such as gun fired tank rounds, and as such are not 
replacements for the Quick Kill system under development for Future 
Combat System.
    The Navy/Marine Corps are evaluating Army assessments of Active 
Protection Systems and will continue to monitor advances in this 
capability and evaluate its utility for future use by Naval Forces on 
its vehicles. The Air Force has not yet identified this as a 
requirement for Air Force vehicles.
    The Rapid Reaction Technology Office of the Director, Defense 
Research and Engineering (DDR&E) within the Under Secretary of Defense 
for Acquisition, Technology and Logistics (USD(AT&L)) is sponsoring the 
Wolf Pack Platoon Project. Testing on this program builds on earlier 
tests that also validate extensive Israeli testing and U.S. industry 
evaluation.
    Under the current schedule and budget, Trophy APS and its auto-
loader will undergo limited technical tests and war games from August 
to December 2007. Follow-on experiments with operational units are 
planned from January to August 2008. The tests will be to urgent 
material release standard. This testing will inform the development, 
tactics, policies, procurement and acquisition of any candidate APS at 
relatively low cost and risk. This parallel path is designed to 
accelerate and inform the acquisition program.
    Testing Trophy's safety, sustainability, and suitability is an 
essential precondition to any fielding decision. Finally, the 
Department will fully support and consider the findings of the 
independent review of the Institute for Defense Analysis mandated by 
the John Warner National Defense Authorization Act for Fiscal Year 
2007.
    Mr. Abercrombie. Why was the Trophy system removed from the Full 
Spectrum Effects Platform (FSEP) as one of the systems to be evaluated 
in field testing in Iraq?
    Dr. Buhrkuhl. The Trophy system displayed technical development and 
performance risks which ultimately led to the decision to delay the 
integration and testing of these capabilities onto the FSEP.
    Mr. Abercrombie. NBC news recently indicated that there are 
officials in the Office of the Secretary of Defense who believe that 
the Trophy Active Protection System can save lives. Can you describe 
the decision process that led to removal of Trophy from the Full 
Spectrum Effects Platform (FSEP) and any objections that you are aware 
of from other OSD officials?
    Dr. Buhrkuhl. On April 28, 2005, after evaluating the Central 
Command's request for non-lethal capabilities, the Joint Staff's Deputy 
Director for Resources and Acquisition supported the Central Command's 
need, but stated that the proposed FSEP (then called Sheriff) solution, 
with all its subcomponent systems, was ``unachievable in the near-
term,'' which is a prerequisite for taking action to resolve an 
Immediate Warfighter Need. The time frame for defining ``near-term'' is 
flexible, and can extend up to two years in order to deliver some 
capability to the warfighter to satisfy, or mitigate, an immediate 
need. However, the near-term time period does not include weapon 
systems development.
    Subsequently, the Office of Force Transformation (OFT), working 
with the Army officials and Naval Surface Warfare Center (NSWC) 
engineers at Dahlgren, Virginia, planned a more thorough and 
accelerated schedule for developing the FSEP vehicle. The Office of 
Force Transformation representatives presented their accelerated 
schedule to the JRAC on September 19, 2005.
    Their plan included an optimistic effort for integration, testing, 
evaluation, and spiral development, leading to deployment of some 
capability in 2007. The JRAC accepted the schedule after consultation 
with the Office of Force Transformation and the Army Staff.
    Based upon the JRAC's January 2006 recommendation, the Deputy 
Secretary of Defense approved $31.3 million for the Army to proceed 
with FSEP Spiral 1 Development. In May 2006, the Army Program Manager 
identified potential delays in delivering Spiral 1 capabilities due to 
technical development and performance risks related to the Active 
Protection System, Trophy. My collaborative discussion with OFT, the 
Army, and NSWC Dahlgren about these risks led to the decision to 
postpone the integration of these capabilities to a later development 
Spiral.
    During my deliberations, I consulted with numerous stakeholders 
that included the Joint Staff's Deputy Director for Resources and 
Acquisition; the Commander, Army Test and Evaluation Command (ATEC); 
the Deputy Director of Land and Expeditionary Warfare from the Office 
of the Director for Operational Test and Evaluation; and the Director 
of Capabilities Developments from the US Army Capabilities Integration 
Center; representatives from the Naval Surface Warfare Center, Dahlgren 
and the Office of Force Transformation, who advised me on their 
perspectives of the availability and readiness of the Active Protection 
Subsystem. The preponderance of stakeholders advised me that the Active 
Protection Subsystem would slip significantly due to its technological 
immaturity and qualification testing requirements.
    I presented the available facts to the CENTCOM Chief of Staff, and 
asked that the requested capability be revalidated. In doing this, I 
specifically raised the issues about the potential cost and schedule 
impacts of the Active Protection Subsystem on the FSEP. On May 16, 
2006, Central Command responded that proceeding with Spiral 1 with 
readily available capabilities was preferred, and that the Active 
Protection capability could be integrated as it became mature in a 
later spiral of FSEP development, if it proved successful.
    As I stated in my testimony, we collaborated with the Office of 
Force Transformation (OFT) throughout our deliberations on responding 
to the CENTCOM Joint Urgent Operational Need. OFT; however, is not a 
test activity and so we consulted with DOT&E and ATEC to determine the 
most likely timeframe for testing. We were aware of the OFT concern 
regarding the schedule; however, after studied consideration of the 
development and performance risks involved, the JRAC agreed with the 
recommendations of the independent test organizations and the program 
office.
    Mr. Abercrombie. Dr. Buhrkuhl, this hearing isn't about FCS, but do 
you see how selection of Trophy or another interim active protection 
system for a field test in Iraq could threaten the Future Combat 
Systems program, as inferred by NBC news?
    Dr. Buhrkuhl. I will not speculate on whether the Trophy system 
could threaten another program. I can state, unequivocally, that the 
FCS program did not play a role in the JRAC's decisionmaking that led 
to the delay in integrating Trophy onto the Full Spectrum Effects 
Platform (FSEP).
    Mr. Abercrombie. Are you opposed to putting an active protection 
system on a Full Spectrum Effects Platform test vehicle as a technical 
demonstration of its capability?
    General Sorenson. No. Currently, the Army has deployed three (3) 
complete Stryker Brigade Combat Team (SBCT) sets (317ea) of Stryker 
SLAT armor, to include 31 sets of spares per SBCT, 994 sets of Bradley 
Reactive Tiles, and the first sets of Abrams Reactive Tiles. These will 
be delivered to Theater in June 2007. To date, these systems have 
proved to be highly effective in defeating the RPG threat. Yes, the 
Future Combat System (FCS) program and Program Executive Officer (PEO) 
Ground Combat Systems (GCS) are developing a full-spectrum solution to 
counter short (first priority) and long-range threats, which include a 
wide range of ballistic projectiles: RPGs, mortars, antitank guided 
missiles, tank-KE/HEAT, top attack/precision guided missiles, and large 
caliber cannon. The Army solution will be common to the current 
(Stryker, Bradley, and Abrams) and future force (FCS Manned Ground 
Vehicles) and capable of receiving upgrades over time to meet the 
evolving threat.
    Mr. Abercrombie. When is the first Army operational active 
protection system scheduled to meet its initial operational capability?
    General Sorenson. A prototype that has completed performance 
verification testing will be ready as early as last Quarter fiscal year 
2009. As currently planned, a Low-Rate Initial Production decision is 
schedule in FY11. Full-up production verification testing begins in the 
1st Quarter FY12.
    Mr. Abercrombie. Is the system on track and adequately funded to 
meet that date?
    General Sorenson. Yes. However, the production decision and 
subsequent verification testing activities can be accelerated to start 
in fiscal year 2010 if the Army fully resources A-Kit integration and 
production.
    Mr. Abercrombie. Would you please detail your involvement and 
conclusions from evaluating and testing active protection system for 
the Full Spectrum Effects Vehicle.
    Captain McGettigan. The Naval Surface Warfare Center Dahlgren 
Division (NSWCDD), with Rafael and General Dynamics Land Systems, 
conducted two integrations of the Trophy system to support the Full 
Spectrum Effects Vehicle (FSEP) program:
    The first was the integration of the Trophy onto the FSEP Stryker 
vehicle conducted in Dec. 05. In this integration, the Trophy launchers 
were mounted to the side of the FSEP vehicle. Structural analysis and 
testing of the launcher mounting points verified that the Stryker hull 
would not be adversely affected by the Trophy system. The Trophy search 
radar systems were mounted on each side and at the front and rear of 
the vehicle in special mounting brackets. The internal components of 
the Trophy system were integrated as part of the FSEP system and were 
mounted in racks and positions suitable for employment in the FSEP 
vehicle. The Trophy system was powered by the FSEP system generator. No 
additional electrical power requirements were needed. This first 
integration incorporated the Trophy as part of the FSEP system and was 
reflective of how it would be included in a combat vehicle.
    The second FSEP Trophy integration was on the Israeli Defense Force 
Stryker. This integration was conducted to support the tests and 
demonstration planned at NSWCDD in March 06. The exterior installation 
of this system was identical to that on the initial FSEP vehicle 
installation. The interior components of the Trophy system were rack 
mounted inside the vehicle to facilitate the necessary testing and 
analysis. Again, in this installation the Trophy system ran exclusively 
on vehicle power. No additional power systems were needed. This 
installation was not intended to represent a combat capable 
configuration. The installation was developed as a demonstration 
capability to facilitate the testing, demonstration and extraction of 
data from the system.
    The table below summarizes the testing that was conducted on these 
two configurations in conjunction with the FSEP/Project Sheriff 
efforts.

                The Trophy integrated on the FSEP Stryker
------------------------------------------------------------------------
                Test                                Result
------------------------------------------------------------------------
Fit and Function                      Trophy installed and fit as
                                       designed. System functioned as
                                       expected.
------------------------------------------------------------------------

Electromagnetic Vulnerability         No susceptibilities on Trophy.
 (Tailored Environment)
------------------------------------------------------------------------

Hazards of Electromagnetic Radiation  Trophy caused no effects to any
 to Ordnance (HERO)                    ammunition types expected aboard
                                       FSEP.
------------------------------------------------------------------------

Hazards of Electromagnetic Radiation  Below personnel exposure limits.
 to Personnel (HERP)
------------------------------------------------------------------------

Electromagnetic compatibility         No interaction of Trophy with
                                       other systems on board vehicle.
------------------------------------------------------------------------


             The Trophy system integrated on the IDF Stryker
------------------------------------------------------------------------
                Test                                Result
------------------------------------------------------------------------
Fit and Function                      Trophy installed and fit as
                                       designed. System functioned as
                                       expected.
------------------------------------------------------------------------

Flash Signature                       The flash signature seen through
                                       the periscopes of the vehicle
                                       would not cause ocular damage to
                                       personnel inside the vehicle.
                                       Flash outside of the vehicle
                                       would not cause ocular damage.
------------------------------------------------------------------------

Acoustic Signature                    Adequate hearing protection is
                                       provided by the required standard
                                       hearing protection worn inside
                                       the vehicle.
------------------------------------------------------------------------

Blast Overpressure                    Minimal blast overpressure inside
                                       of the vehicle. Trophy is
                                       designed to be operated with open
                                       hatches.
------------------------------------------------------------------------

Debris Protection                     Witness panels proved that blast
                                       shields protected crew hatch
                                       areas from debris. Trophy is
                                       designed to be operated with open
                                       hatches.
------------------------------------------------------------------------

Live Fire tests conducted at NSWCDD   38 tests were conducted with inert
                                       rocket propelled grenades (RPGs)
                                       being fired at (or in close
                                       proximity to) the vehicle.
                                       Multiple tests were conducted
                                       firing 2 RPGs nearly
                                       simultaneously--one to each side
                                       of the vehicle.






------------------------------------------------------------------------


    In addition to the tests noted above a structural test was 
conducted at Aberdeen Proving Ground to determine that the loading 
imposed by a Trophy warhead would not overstress a Stryker vehicle. A 
1/2 kg charge of C-4 was detonated in place of the Trophy warhead and 
no structural damage was noted.

    The conclusions from the tests were:

        1.   To the extent it was tested, the Trophy performed as 
        advertised by Rafael.

        2.   The Trophy is a likely candidate as an interim or rapidly 
        deployable active protection system (APS) capability.

        3.   The DoD should further evaluate the Trophy system to 
        better understand its performance capabilities and limitations 
        and to help develop tactics and techniques for using an APS.
    Mr. Abercrombie. Was there an autoloader on the Trophy system you 
tested?
    Captain McGettigan. No.
    Mr. Abercrombie. What is your judgment of how long it would have 
taken to develop, test and field a Stryker field equipped with an 
operational active protection system?
    Captain McGettigan. Pending the results of additional testing to be 
certified for use by the US military, we estimate it would take 
approximately 16 months to develop an integration kit and to test the 
integrated system to appropriate standards. Other requirements for 
fielding (logistics, training, other support, etc.) would have to be 
developed by the Army program manager who should be contacted for those 
estimates.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. ORTIZ
    Mr. Ortiz. Will you have enough Interceptor body armor sets, 
including ESAPI plates, to support the troops involved In the 
President's troop increases? If not, what is the plan to support the 
increase?
    General Speakes. The Army has over 900,000 sets of body armor to 
include ESAPI on hand. There is more than sufficient body armor with 
side plates to fully support the President's troop increase..
    Mr. Ortiz. What about the rest of the RFI equipment such as the new 
helmet, ballistic eyewear, night vision devices and other protective 
equipment?
    General Speakes. Yes, there is sufficient protective equipment to 
support the troop increase. The Army uses a Force Feasibility Review 
analysis to insure that sufficient protective equipment is distributed 
equally among all deploying units.
    Mr. Ortiz. Will the troops receive this equipment prior to 
deployment so they can properly train and prepare while wearing it?
    General Speakes. Yes; the goal is to insure all equipment used in 
combat is available for Soldiers to train with, prior to deployment. 
Normally equipment is provided 45 days prior to the unit's Major 
Readiness Exercise (MRE). Any equipment not available for training will 
be provided either before deployment or in Theater based on 
availability of critical items.
    Mr. Ortiz. Will the troops (or units) deploying have all the 
required 4th generation, Level 1 uparmored vehicles they need?
    General Speakes. Yes, all deploying units for the plus up will be 
issued Up-armored HMMWVs, with Fragmentation Kit 5 during the staging 
of units in Kuwait.
    Mr. Ortiz. If not, when will they get them? In Kuwait? In Iraq? If 
it's in the CENTCOM Theater, what do they train with at home station?
    General Speakes. The Army has sufficient UAH retrofit kits and new 
vehicle production to meet theater requirements. As for training at 
home station, training sets have been established for each Army Command 
in the Continental United States. The commands have a mixture of Level 
I and Level II HMMWV training sets to train units prior to deployment.
    Mr. Ortiz. Will these vehicles all have the required Frag kit #5 
and CREW (Counter Remote control IED Electronic Warfare) systems?
    General Speakes. Yes, all vehicles being shipped to Theater have 
all safety and force protection enhancements applied during production. 
During the staging of units in Kuwait, all required Command, Control, 
Communications, Computers, Intelligence, Surveillance, and 
Reconnaissance (C4ISR) and counter-Improvised Explosive Device systems 
are installed prior to being issued to units leaving Kuwait.
    Mr. Ortiz. You stated that the theater requirement for route 
clearance vehicles (Cougar/Buffalo) has been fulfilled. Does this 
include the route clearance vehicles that the incoming ``surge'' units 
will need?
    General Speakes. Route clearance teams are comprised of three types 
of vehicles: the Buffalo, which is a mine protected clearance vehicle; 
a pair of Huskies, which serve as vehicular mounted mine detection 
systems; and a set of RG-31s, which are used for command and control 
and additional security vehicles for the team. As of January 26, 2007, 
we have validated and resourced a requirement for 523 route clearance 
vehicles. We are still validating the number of route clearance teams 
required as part of the surge. We have delivered 246 of the required 
route clearance vehicles to theater and have 14 vehicles in the 
Continental United States (CONUS) being used for training, testing, and 
integration efforts. Contracts have been awarded to purchase the full 
validated requirement and the vehicles are being delivered to theater 
as soon as possible.
    The Cougar is not a route clearance vehicle. The Cougar/Joint 
Explosive Ordnance Disposal Rapid Response Vehicle is an armored 
vehicle used by the Explosive Ordnance Disposal (EOD) teams for EOD 
operations.
    The Army is in the process of validating the number of route 
clearance teams that will be required as part of the surge.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CASTOR
    Mr. Castor. What equipment did the Brigade Commanders ask for, what 
did the military specify could and could not be provided, and how 
depleted are the stocks of equipment our soldiers need?
    General Speakes. All of our deployed Brigade Combat Teams are 
equipped to our highest levels of readiness with the most modern 
equipment available in the Army inventory. As the enemy identifies and 
exploits our vulnerabilities, commanders respond by developing 
appropriate tactics, techniques, and procedures (TTPs), based on 
lessons learned. To correct a deficiency or request an additional 
capability that impacts mission accomplishment, commanders inform the 
chain of command through the use of Operational Needs Statements (ONS). 
During Fiscal Year 2006, there were 437 Operational Needs Statements 
submitted by commanders. These Operational Needs Statements resulted in 
350,349 items being approved as requested.
    The majority of Operational Needs Statements are sourced as 
requested. The most commonly requested equipment included 
communications equipment, weapons, vehicles and vehicular armor. 
Equipment that was frequently requested and which the Army was unable 
to fully resource includes Single Channel Ground and Airborne Radio 
Systems (SINCGARS), Blue Force Tracker (BFT), Long Range Advanced Scout 
Surveillance System (LRAS3), M4 rifles, and Thermal Weapons Sights 
(TWS).
    Programmed and supplemental funding has enabled us to equip Brigade 
Combat Teams with SINCGARS, BFT, LRAS3 and M4s in sufficient quantities 
to achieve full combat effectiveness. Due to production limitations we 
are not able to provide sufficient quantities of Thermal Weapons 
Sights. All Brigade Combat Teams start receiving their full requirement 
of Thermal Weapons Sights in Fiscal Year 2008 and all other types of 
brigades begin receiving their full requirement in Fiscal Year 2010. We 
project that all current requirements for Thermal Weapons Sights will 
be filled by Fiscal Year 2013.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MCKEON
    Mr. McKeon. The Active Protective System (APS) is the hit avoidance 
platform of the manned FCS platform against anti-tank threat munitions 
prior to the threat munitions making contact with the platform. What 
are your thoughts on the Quick Kill program that takes advantage of 
smart energetics architecture (SEA) technology and getting such 
protective systems into the hands of the soldiers quickly?
    Dr. Buhrkuhl. Although challenges to fielding a capable Active 
Protection System still exist, I am encouraged that we are making 
progress in providing soldiers with this capability.
    Mr. McKeon. I'd like your thoughts on other APS technologies you 
are looking at for active protective systems specifically the Short 
Range Countermeasure (SRCM) and Long Range Countermeasure (LRCM) 
programs and their schedules.
    Dr. Buhrkuhl. I have no personal knowledge of the Short Range 
Countermeasure (SRCM) and Long Range Countermeasure (LRCM) programs and 
their schedules. As the Director, JRAC my concerns have been directed 
specifically at meeting the Combatant Commanders' near-term, immediate 
warfighter needs (IWN) for non-lethal capabilities through deployment 
of the Full Spectrum Effects Platform (FSEP), this summer. The JRAC's 
focus is on technical readiness level 6+, non-developmental items.
    Mr. McKeon. What is the DOD acquisition policy for APS?
    Dr. Buhrkuhl. The same policies that apply to the acquisition of 
other defense systems and components also apply to Active Protection 
Systems. Any capability gap solution is subject to the Departmental 
oversight necessary to reasonably ensure safety and interoperability 
concerns are properly addressed, prior to fielding.
    Mr. McKeon. To get these technologies into the hands of the troops 
quicker would the Army's Rapid Equipping Force be a source of funding 
or procurement? Are there other sources of funding?
    Dr. Buhrkuhl. Funding and accelerated procurement have not 
precluded rapid fielding; rather, the maturity of the technology and 
its testing and integration have prevented more rapid fielding of these 
capabilities.
    Mr. McKeon. What else is needed to ensure that cost, schedule, and 
performance outcomes for APS and other force protection systems that 
use Smart Energetics Architecture (SEA) technology are predictable and 
achievable when these programs seek approval from Congress?
    Dr. Buhrkuhl. I am not aware of any additional requirements 
necessary to ensure cost, schedule and performance outcomes for such 
systems.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS
    Ms. Giffords. In terms of long-term effects as far as symptoms that 
would not appear within the first couple of weeks or couple of months, 
but perhaps a year or two, is there an ongoing process to make sure 
that our soldiers don't suffer from long-term effects or can be treated 
effectively?
    General Speakes. Soldiers who are diagnosed with moderate to severe 
traumatic brain injury (TBI) are normally evaluated and followed by the 
Defense and Veterans Brain Injury Center which has case managers in 
military and Department of Veterans Affairs medical centers. Currently, 
there is not a long-term follow-up program for Soldiers who have 
experienced mild TBI such as a mild concussion. To better understand 
the effect of mild concussion on Soldiers, Lieutenant General Kiley, 
the Army Surgeon General, has chartered a task force to better define 
the diagnosis of TBI, to identify gaps in research and treatment of 
mild TBI, and to recommend actions to close those gaps. The task force, 
which includes representatives from a variety of medical specialties as 
well as from the Department of the Navy, Department of the Air Force, 
and Department of Veterans Affairs, is expected to report its findings 
and recommendations to Lieutenant General Kiley in May 2007.
    The military uses the Post Deployment Health Assessment (PDHA) and 
Post Deployment Health Reassessment (PDHRA) processes to screen 
Soldiers for medical conditions associated with their deployment. 
Although the current versions of the PDHA and PDHRA do not include 
specific traumatic brain injury (TBI) screening questions, both 
instruments contain questions that capture signs and symptoms of TBI, 
and the PDHRA specifically asks about physical injury. The Office of 
the Secretary of Defense (Health Affairs) is in the process of adding 
TBI specific questions to the PDHA and PDHRA as directed by the FY2007 
National Defense Authorization Act.
    The PDHRA takes place 3-6 months after the Soldier has returned 
from deployment. As part of the PHDRA process all Soldiers sit down and 
talk with a health care provider (HCP) after filling out the PDHRA, 
providing the HCP an opportunity to document suspected TBI and refer 
the Soldier for further evaluation and care.
    Additionally, the annual Periodic Health Assessment provides 
Soldiers in the Active Army, Army Reserve, and Army National Guard an 
opportunity to be evaluated yearly for any medical issues and concerns.
    For Soldiers who transition out of the Army following their combat 
service in the Global War on Terror, the Department of Veterans Affairs 
(VA) provides cost-free health care services for a period of 2 years 
beginning on the date of separation from active military service. This 
provides an additional opportunity to identify and treat any late 
developing conditions associated with combat service. At the end of the 
two year period, the VA reassesses the veteran's information (including 
all applicable eligibility factors) and makes a new enrollment 
decision.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOBIONDO
    Mr. LoBiondo. I do not know what we can do for this dad to be able 
to convince him that the Army was correct in providing the best 
possible product of safety, because his next question to me was he 
wanted to buy the Dragon Skin and provide it for his sons because they 
felt it was the best out there. How do we deal with something like 
that? How do I convince this dad that we are taking all of the steps to 
ensure what you have said? How does that get communicated that they are 
satisfied that the process we go through in identifying the most 
effective body armor is a sound process and that his sons are being 
protected to the best of technological abilities?
    General Sorenson. Extensive marketing campaigns and press releases 
by Pinnacle Armor continue to make remarkable claims regarding their 
product's level of ballistic protection. The claims directly compare 
Dragon Skin to the Army's Interceptor Body Armor (IBA) with the 
assertion that IBA is inferior. The Army has test data that shows that 
Dragon Skin does not meet the Army requirement for Soldier Body Armor 
protection.
    During the period 16-19 May 2006, Project Manager, Soldier 
Equipment (PM SEQ) conducted testing of Pinnacle Armor's SOV 
3000<SUP>TM</SUP> Body Armor Vest (Dragon Skin) at H.P. White labs near 
APG. (HP White is the National Institute of Justice certified 
ballistics lab used to test Army Body Armor)
    Testing was conducted using the Enhanced Small Arms Protective 
Insert (ESA-PI) First Article Test (FAT) protocols to insure the item 
meets Army requirements for ballistic protection. Prior to fielding, 
all ESAPI designs must pass a robust FAT protocol under a variety of 
environmental conditions including high (+1600 F) and low (-600 F) 
temperature, diesel fuel, oil, and saltwater immersion, and a 14 hour 
temperature cycle from -250 F to +1200 F.
    Pinnacle SOV 3000 level IV Dragon Skin vests suffered 13 first or 
second shot complete penetrations, failing 4 of 8 initial subtests with 
ESAPI threat baseline of Armor Piercing (AP) ammunition. Pinnacle SOV 
3000 level IV Dragon Skin suffered catastrophic failure of the ceramic 
disc containment grid adhesive at -600 F, 1200 F and 1600 F.
    The SOV 3000 design is sensitive to extreme temperatures and failed 
to maintain ballistic integrity at temperatures below summer ambient in 
Iraq and Afghanistan. This failure mode caused discs to delaminate and 
accumulate in the lower portion of the armor panel, thus resulting in 
exposing the spine, vital organs, and critical blood vessels to lesser 
ballistic threats.
    Force protection is the Army's number one priority. We share a 
common objective of ensuring Soldiers are equipped with the best 
possible force protection equipment available.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. REYES
    Mr. Reyes. Exactly where are we in that process in terms of giving 
our military personnel that survivability in both theaters? Where are 
we on that? Is it an R&D issue or is it a Procurement issue? Where 
exactly are we with that? Is there a time frame that you could give the 
committee?
    General Sorenson. 1. Suspension Seats for Tactical Wheeled Vehicles 
(TWV):

    Project Manager (PM) TWV is not pursuing the application of 
suspended seating for TWVs. However, the Tank Automotive Research, 
Development and Engineering Center (TARDEC), Warren, Michigan is 
investigating the potential application of suspended seats for the 
Future Combat System (FCS) and subsequent possible applications on 
heavier armored systems. Numerous seat alternatives for the future 
Joint Light Tactical Vehicle (JLTV) are being considered. The JLTV 
program anticipates incorporating some form of suspended seats.

    2. Suspension Seats for the Heavy Brigade Combat Team (HBCT):

      a. HBCT. Integration and fielding of Improvised Explosive Devices 
(IED)/mine resistant suspended seats into HBCT vehicles is currently 
being pursued as a procurement effort.

        <bullet>  Focus throughout this effort has been on the 
        integration of commercial off-the-shelf (COTS) mine resistant 
        seat technologies onto our HBCT vehicles.

        <bullet>  A variety of seat technologies have been evaluated 
        from many different vendors for possible integration such as 
        suspended seats, helicopter crash seats, etc.

      b. Abrams Tank. Current efforts are focused on the procurement 
and fielding of a suspended seat for the driver only. Fielding of the 
suspended seat for the driver's position is scheduled to begin in the 
June/July 2007 timeframe in conjunction with the fielding of the Abrams 
Tank Urban Survivability Kit (TUSK) components on the vehicles in Iraq. 
PM Abrams is continuing to evaluate similar mine resistant seating 
technology for potential integration in the other more complex crew 
positions in the Abrams tank.

      c. Bradley Fighting Vehicle Systems (BFVS). PM BFVS will evaluate 
suspended seats for the squad area of the BFVS from two (2) candidate 
manufacturers when the candidate seats are delivered to the PM in late 
February 2007. The PM BFVS and the Army Research Laboratory (ARL) will 
conduct an engineering design review and modeling/simulation evaluation 
of the seats at Aberdeen Proving Grounds (APG), Aberdeen, MD to 
determine the suitability of the candidate seat designs for potential 
application to the BFVS. If suitable, the final design will be 
subjected to a static and dynamic user evaluation. The BFVS program 
objective is to accept a final seat candidate design and initiate 
production of seats not later than fourth quarter fiscal year 2007 and 
begin fielding in Iraq 90 days thereafter. The PM is exploring the 
potential application of suspended seats for the driver's position. 
However, due to inherent design limitations and associated technical 
issues a longer term solution is envisioned.

      d. M113 Family of Vehicles (FOV). PM BFVS is not directly 
exploring application of suspended seating for the M113 Family of 
Vehicles. However, if the Army initiates a requirement for a suspended 
seat for the M113 FOVs, the PM's course of action would be to adapt the 
seating system selected for the BFVS.

                                  <all>

</pre></body></html>
